APPENDIX

TABLE OF APPENDICES
Appendix A
Opinion, United States Court of Appeals
for the Fifth Circuit, Ralph Janvey v.
GMAG, L.L.C., et al., No. 17-11526 (Oct.
8, 2020)......................................................... App-1
Appendix B
Order, United States Court of Appeals for
the Fifth Circuit, Ralph Janvey v. GMAG,
L.L.C., et al., No. 17-11526 (Feb. 23, 2021)
.................................................................... App-16
Appendix C
Opinion, United States Court of Appeals
for the Fifth Circuit, Ralph Janvey v.
GMAG, L.L.C., et al., No. 17-11526 (Jan.
9, 2019)....................................................... App-18
Appendix D
Order, United States Court of Appeals for
the Fifth Circuit, Ralph Janvey v. GMAG,
L.L.C., et al., No. 17-11526 (May 24, 2019)
.................................................................... App-30
Appendix E
Opinion, Supreme Court of Texas, Ralph
Janvey v. GMAG, L.L.C., et al., No. 190452 (Dec. 20, 2019) .................................. App-43
Appendix F
Order, United States District Court for
the Northern District of Texas, Ralph
Janvey v. GMAG, L.L.C., et al., No. 15-cv00401 (Sept. 14, 2017) ............................... App-60

ii
Appendix G
Order, United States District Court for
the Northern District of Texas, Ralph
Janvey v. GMAG, L.L.C., et al., No. 15-cv00401 (Dec. 14, 2017) ................................ App-65

App-1
Appendix A
UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
________________
No. 17-11526
________________
RALPH S. JANVEY, in his capacity as court-appointed
receiver for the STANFORD INTERNATIONAL BANK
LIMITED et al.,
Plaintiff-Appellant,
v.
GMAC, L.L.C.; MAGNESS SECURITIES, L.L.C.; GARY D.
MAGNESS; MANGO FIVE FAMILY INCORPORATED, in its
capacity as a trustee for the GARY D. MAGNESS
IRREVOCABLE TRUST,
Defendants-Appellees.
________________
Filed: Oct. 8, 2020
________________
Before: STEWART, DENNIS, and WILLETT,
Circuit Judges.
________________
OPINION
________________
CARL E. STEWART, Circuit Judge:
This case requires us to determine whether the
Texas Uniform Fraudulent Transfer Act’s—or
TUFTA’s—good faith affirmative defense allows
Defendants-Appellees to retain fraudulent transfers
received while on inquiry notice of a Ponzi scheme. We

App-2
initially held it does not. We then vacated that
decision so that the Supreme Court of Texas could
clarify whether good faith requires a transferee on
inquiry notice to conduct an investigation into the
fraud, or, alternatively, show that such an
investigation would have been futile. Having received
an answer to our question, we once again hold that the
Defendants-Appellees’ good faith defense must fail.
We therefore REVERSE the district court’s judgment
and RENDER judgment in favor of PlaintiffAppellant.
I.

FACTS & PROCEDURAL HISTORY

The Securities and Exchange Commission
(“SEC”) uncovered the Stanford International Bank
(“SIB”) Ponzi scheme in 2009. For close to two decades,
SIB issued fraudulent certificates of deposit (“CDs”)
that purported to pay fixed interest rates higher than
those offered by U.S. commercial banks as a result of
assets invested in a well-diversified portfolio of
marketable securities. In actuality, the “returns” to
investors were derived from new investors’ funds. The
Ponzi scheme left over 18,000 investors with $7 billion
in losses. The district court appointed PlaintiffAppellant Ralph S. Janvey (the “Receiver”) to recover
SIB’s assets and distribute them to the scheme’s
victims.
Defendants-Appellees are Gary D. Magness and
several entities in which he maintains his wealth
(collectively, the “Magness Parties”). Magness was
among the largest U.S. investors in SIB. Between
December 2004 and October 2006, Magness purchased
$79 million in SIB CDs. As of November 2006,
Magness’s family trust’s investment committee

App-3
monitored Magness’s investments (including the SIB
CDs). In July 2008, Bloomberg reported that the SEC
was investigating SIB. On October 1, 2008, the
investment committee met and, given its perceived
risk associated with continued investment in SIB,
persuaded Magness to take back, at minimum, his
accumulated interest from SIB. Magness’s financial
advisor, Tom Espy, then approached SIB for a
redemption of Magness’s investments. SIB, however,
informed Espy that redemption would not be possible
at that time since, “given the general market decline,
SIB[] wanted to keep the asset value of the CDs on its
balance sheet.” This statement contradicted SIB’s
public claims of liquidity and strong financial health.
On October 10, 2008, SIB agreed to loan Magness $25
million on his accumulated interest. Between October
24 and 28, 2008, Magness borrowed an additional
$63.2 million from SIB. In total, Magness received
$88.2 million in cash from SIB in October 2008.
The Receiver sued the Magness Parties to recover
funds under theories of (1) fraudulent transfer
pursuant to TUFTA and (2) unjust enrichment. The
Receiver obtained partial summary judgment as to
funds in excess of Magness’s original investments, and
Magness returned this $8.5 million to the Receiver.
The Receiver then moved for partial summary
judgment, seeking a ruling that the remaining
amounts at issue were fraudulent transfers. The
Magness Parties also moved for summary judgment
on a good faith defense under TUFTA and the
Receiver’s unjust enrichment claims. On December 21,
2016, the district court granted the Receiver’s motion
and denied the Magness Parties’ motions.

App-4
The case proceeded to trial in January 2017. Right
before trial, the district court sua sponte reconsidered
its denial of summary judgment on the Magness
Parties’ unjust enrichment claims and concluded that
there had been no unjust enrichment. Thus, the only
issue presented to the jury was whether the Magness
Parties received the $79 million, already determined
to be fraudulent transfers, in good faith. After the
Magness Parties presented their case-in-chief, the
Receiver moved for judgment on the grounds that
(1) the Magness Parties were estopped from claiming
that they took the transfers in good faith and (2) no
reasonable jury could conclude that the Parties
established the TUFTA good faith defense. The
district court did not rule on the motion. The jury
found that the Magness Parties had inquiry notice in
October 2008 that SIB was engaged in a Ponzi scheme,
but not actual knowledge. The jury also found that
further investigation by the Magness Parties into SIB
would have been futile.
The Receiver moved for entry of judgment on the
verdict, arguing that the jury’s finding of inquiry
notice meant that, as a matter of law, Magness could
not have acted in good faith. The Receiver also
renewed his motion for judgment as a matter of law.
The district court denied the Receiver’s motions and
held that the Magness Parties had satisfied their good
faith defense. The Receiver renewed his post-trial
motions and moved for a new trial. The district court
denied these motions and issued its final judgment
that the Receiver take nothing aside from his prior
receipt of $8.5 million.

App-5
Appealing that judgment, the Receiver argued
that (1) the Magness Parties were estopped from
contesting their actual knowledge of SIB’s fraud or
insolvency; (2) the jury’s finding of inquiry notice
defeated the Magness Parties’ TUFTA good faith
defense as a matter of law; (3) the district court’s jury
instructions were erroneous and reduced the Parties’
burden to establish good faith; and (4) the district
court erred by granting the Parties’ motion for
summary judgment on the Receiver’s unjust
enrichment claims.
On January 9, 2019, we decided this case on the
second argument. Relying on the text of TUFTA and
caselaw from the Texas lower courts, this court, and
the district courts in this Circuit, we reversed the trial
court’s judgment and rendered judgment in favor of
the Receiver. See Janvey v. GMAG, L.L.C., 913 F.3d
452, 458 (5th Cir. 2019). Magness then filed petitions
for panel rehearing and rehearing en banc, in which
he argued that we should certify a question to the
Supreme Court of Texas regarding the proper test for
determining TUFTA good faith. Because the Texas
courts to consider TUFTA good faith had not
considered whether it includes a diligent investigation
requirement or a futility exception, we, on May 24,
2019, vacated our prior opinion and certified the
following question to the Supreme Court of Texas: “Is
the [TUFTA] ‘good faith’ defense against fraudulent
transfer clawbacks … available to a transferee who
had inquiry notice of the fraudulent behavior, did not
conduct a diligent inquiry, but who would not have
been reasonably able to discover that fraudulent
activity through diligent inquiry?” See Janvey v.
GMAG, L.L.C., 925 F.3d 229 (5th Cir. 2019).

App-6
On December 20, 2019, the Supreme Court of
Texas answered our question in the negative and held
that “[a] transferee on inquiry notice of fraud cannot
shield itself from TUFTA’s clawback provision without
diligently investigating its initial suspicions [of
fraud]—irrespective of whether a hypothetical
investigation would reveal fraudulent conduct.”
Janvey v. GMAG, L.L.C., 592 S.W.3d 125, 133 (Tex.
2019). The Supreme Court of Texas, however, declined
to clarify “under what circumstances a diligent
investigation by a transferee on inquiry notice of fraud
will be sufficient to establish good faith.” Id. at 132. It
also took no position on whether the Magness Parties
performed a diligent investigation into their initial
suspicions of SIB’s Ponzi scheme. Id. at 128 n.1.
Because this case is resolved by our TUFTA good
faith analysis, we once again only reach the second of
the Receiver’s arguments.
II. STANDARD OF REVIEW
We review de novo a renewed motion for judgment
as a matter of law. Montano v. Orange County, 842
F.3d 865, 873 (5th Cir. 2016). If “there is no legally
sufficient evidentiary basis for a reasonable jury to
find for [a] party,” judgment as a matter of law is
proper. Id. (quoting Williams v. Hampton, 797 F.3d
276, 282 (5th Cir. 2015)). Evidence is viewed “in the
light most favorable to the nonmovant.” Id.
III. DISCUSSION
The Magness Parties offer several arguments for
affirming the district court’s judgment. For the
reasons that follow, we reject each one.

App-7
TUFTA allows a transferee who receives a
transfer in good faith and in exchange for reasonably
equivalent value to avoid a clawback action by the
defrauded creditor. Tex. Bus. & Com. Code
§ 24.009(a). The transferee bears the burden of
proving TUFTA’s good faith affirmative defense.
Flores v. Robinson Roofing & Constr. Co., 161 S.W.3d
750, 756 (Tex. App.—Fort Worth 2005, pet. denied).
Under TUFTA, good faith means that “[a] transferee
must show that its conduct was honest in fact,
reasonable in light of known facts, and free from
willful ignorance of fraud.” GMAG, 592 S.W.3d at 129.
Texas courts evaluating a TUFTA good faith defense
consider whether a transferee received fraudulent
transfers with actual knowledge or inquiry notice of
fraud or insolvency. See, e.g., Citizens Nat’l Bank of
Tex. v. NXS Constr., Inc., 387 S.W.3d 74, 85 (Tex.
App.—Houston [14th Dist.] 2012, no pet.). A
transferee on inquiry notice of fraudulent behavior
cannot satisfy the good faith defense without first
diligently investigating his or her initial suspicions of
fraud. GMAG, 592 S.W.3d at 133.
A. Record Evidence
The Magness Parties first argue that we should
affirm the district court’s judgment in favor of them
because the Parties presented extensive evidence at
trial that they “reasonably” investigated their initial
suspicions of SIB’s fraud.
Even
assuming,
without
deciding,
that
“reasonably” equates to “diligently” for the purposes of

App-8
TUFTA good faith,1 we are not persuaded by the
Magness Parties’ argument. The question we must
answer for the purposes of the Parties’ good faith
defense is whether they diligently investigated their
initial suspicions of SIB’s Ponzi scheme during the
time period—October 2008—the jury found them to be
on inquiry notice. Yet they assert:
Shortly after it was formed [in 2006], and as
part of its fiduciary obligations to Magness,
[the investment committee] investigated the
Stanford CDs because they were the
investments about which the [] committee
had the least existing knowledge. Then, in
2007, [the investment committee] asked a
third-party consultant (Chuck Wilk), who
was
familiar
with
non-traditional
investments, to further investigate the
investment . . . . As the world economy roiled
in the beginning of the mortgage crisis, [the
Magness Parties] again investigated Stanford
in March 2008 by arranging for a phone
conversation with [SIB’s] President, Juan
Rodriguez-Tolentino—who later turned out to
be a figurehead that did not know Stanford
was a Ponzi scheme—to assess SIB’s
investments’ exposure to the mortgage
markets. And, even after receiving the
1 Since, as discussed below, the Magness Parties have not
shown that they diligently investigated SIB’s Ponzi scheme while
on inquiry notice, we leave for another day the discussion of what
actions a party must take to show that they diligently
investigated fraud for the purposes of a TUFTA good faith
defense.

App-9
October 2008 loan transfers at issue here,
because [the Magness Parties] still held their
investments in SIB CDs, and had millions of
[their] dollars on deposit, in January 2009,
[they] arranged a further meeting with
Stanford executives to discuss the health of
SIB.
As indicated by the above-quoted passage, the
Magness Parties investigated Magness’s investments
prior to and after October 2008. And instead of
investigations into suspected fraud, they were merely
inquires by the investment committee to inform itself
of the nature and health of Magness’s investments.
The record does not show the Parties accepted the
fraudulent transfers in good faith.
B. Receiver’s Statements
Next, the Magness Parties argue that the
Receiver has conceded that they diligently
investigated their initial suspicions of SIB’s fraud. The
Magness Parties rely on two statements from opposing
counsel that purportedly show that they conducted
such an investigation during the relevant time period.
The first statement was made during the Receiver’s
opening statement in which counsel said that the
Magness Parties asked SIB’s president in March 2008:
“What exactly is this bank investigated in?” and
“What strategies is this bank involved in that backs
up these certificates of deposit?” But, as indicated
above, the statement refers to questions that the
Magness Parties posed to SIB’s president in March
2008, which predated the period during which the jury
found them to be on inquiry notice by seven months.
The second statement was made in the Receiver’s

App-10
objections to the Magness Parties’ proposed jury
instructions in which counsel asserted: “[T]he
undisputed facts in this case show that the Magness
Defendants … did investigate the facts that put them
on notice of SIB’s fraud or insolvency.” But the
statement does not conclusively show that this
investigation occurred when the Magness Parties
were found to be on inquiry notice (or whether it was
conducted diligently). In sum, neither of the cited
statements demonstrate that they diligently
investigated their initial suspicions of SIB’s Ponzi
scheme while on inquiry notice.
C. Remand for Retrial
The Magness Parties additionally argue that a
remand for retrial is necessary since the district court
erroneously instructed the jury to determine whether
an investigation into SIB’s fraud would have been
futile instead of whether the Parties diligently
investigated their initial suspicions of the Ponzi
scheme.2 They contend that “the record evidence is
more than sufficient for a reasonable jury to conclude
that the [Magness Parties’] investigation was
diligent . . . .” But, as discussed above, that evidence is
nowhere to be found. Not only do the Magness Parties’
citations to the record and the Receiver’s statements
not support a conclusion that they diligently
investigated their initial suspicions of SIB’s fraud
while on inquiry notice, but other parts of the record
also support an opposite conclusion. For instance,
when asked whether he requested additional
2 Curiously, the Magness Parties argue that a new trial is
needed because the district court erred in providing a futility
instruction even though the Parties requested that instruction.

App-11
information from SIB between October and December
2008, Magness testified, “I don’t think so.” And
Magness’s witnesses testified that they did not see a
need to inquire into whether SIB was committing
fraud until several months after the Magness Parties
were found to be on inquiry notice. The Magness
Parties have therefore not shown that there is any
evidentiary basis for a reasonable jury to find that
they diligently investigated their initial suspicions of
SIB’s fraud while on inquiry notice.3 Thus, any error
that the district court committed in instructing the
jury on a futility exception was harmless. See
Rubinstein v. Adm’rs of Tulane Educ. Fund, 218 F.3d
392, 404 (5th Cir. 2000) (“Even if an instruction
erroneously states the applicable law or provides
insufficient guidance, [we] will not disturb the
judgment unless the error could have affected the
outcome of the trial.”)
For this reason, we also reject the Magness
Parties’ argument that a new jury trial is warranted
since the Supreme Court of Texas’s response to our
certified question “is a new pronouncement of Texas
The Magness Parties assert that we erroneously concluded in
a prior opinion that the Parties “did not undertake an
investigation prior to accepting the transfers.” See GMAG, 925
F.3d at 233. They observe that we predicated this conclusion on
a statement that “[d]efendants did not perform any inquiry before
redeeming their CDs” from SIB, id. (quoting Janvey v. Alguire,
No. 09-CV-0724, 2016 WL 11271878, at *4 (N.D. Tex. Dec. 21,
2016)), but that the “[d]efendants” referenced there do not
include the Magness Parties. Regardless of our reliance on
Alguire, the Parties have still not shown that they diligently
investigated their initial suspicions of SIB’s fraud while on
inquiry notice.
3

App-12
law that departs from the law the parties and the
district court considered in crafting the jury
instructions.” In support of their argument, the
Parties rely on Lang v. Texas & Pacific Railway
Company, in which we reversed the district court
because we found that it had erred in refusing to give
an instruction in a wrongful death action. 624 F.2d
1275, 1280 (5th Cir. 1980). “[R]elying upon the settled
law in this circuit, the district court [in Lang] refused
the proffered charge. However, … subsequent to the
trial and while the appeal was pending, the Supreme
Court,” in another case, “effectively changed the law
in this area.” Id. at 1279 (internal citation omitted).
Given this intervening Supreme Court precedent, we
therefore held a new trial was warranted on the issue
of damages. Id. at 1280. The Magness Parties’ reliance
on Lang, however, is misplaced because we implicitly
concluded there that the district court’s error in
refusing to give the requested jury instruction was
harmful. That is not the case here. Nor does the
Magness Parties’ reliance on Robinson v. Heilman,
563 F.2d 1304 (9th Cir. 1977), compel a different
result. Robinson addressed an unrelated issue,
namely whether the defendant’s failure to object to a
jury instruction prevented the defendant from arguing
on appeal that the instructions violated intervening
Supreme Court caselaw. Id. at 1307.
Furthermore, the Magness Parties have not
convinced us that depriving them of a second jury trial
would violate their Seventh Amendment and dueprocess rights. In support of their argument, the
Parties rely on three Supreme Court cases. Yet each of
these cases is inapposite.

App-13
The first case, Granfinanciera, S.A. v. Nordberg,
held that parties who have not submitted a claim
against a bankruptcy estate under § 548 of the
Bankruptcy Code have a Seventh Amendment right to
a jury trial when sued by a bankruptcy trustee to
recover an allegedly fraudulent monetary transfer.
492 U.S. 33, 64 (1989). To the extent that TUFTA is
analogous to § 548 of the Bankruptcy Code,4
Granfinanciera stands at most for the proposition that
actions to recover fraudulent transfers are entitled to
be tried before a jury. But our inquiry here is not
whether the Receiver and the Magness Parties had a
right to have this case tried by a jury in the first
instance. Rather, it is whether the Parties are entitled
to another jury trial on a specific issue—whether they
diligently investigated their initial suspicions of SIB’s
Ponzi scheme while on inquiry notice—when the
record indicates that no reasonable jury could find for
the Parties on that issue. We conclude that they are
not. The Seventh Amendment does not require us to
remand for a new trial when the verdict cannot be
sustained on the trial record. See Weisgram v. Marley
Co., 528 U.S. 440, 449-50 (2000).
The second case relied upon by the Magness
Parties, Byrd v. Blue Ridge Rural Electric Co-op., Inc.,
observes that the Seventh Amendment “assigns the
decisions of disputed questions of fact to the jury.” 356
U.S. 525, 537 (1958). But, as noted above, we have no
4 A proposition that itself is questionable. See GE Capital
Commercial, Inc. v. Worthington Nat’l Bank, 754 F.3d 297, 312
n.21 (5th Cir. 2014) (“Certain authorities indicate that § 548 is
not necessarily substantively congruent with state-law
counterparts, despite a common ancestry.”).

App-14
disputed question of fact on whether the Parties
diligently investigated their initial suspicions of SIB’s
fraud while on inquiry notice.
The third case upon which the Magness Parties
rely—Philip Morris USA v. Williams—notes that due
process provides parties with “an opportunity to
present every available defense.” 549 U.S. 346, 353
(2007) (quoting Lindsey v. Normet, 405 U.S. 56, 66
(1972)). Yet the Parties have had an opportunity to
establish the affirmative defense available to them—
good faith—and so we would not violate the Parties’
due-process rights in forgoing a second jury trial.
Consequently, the Magness Parties have not
shown that the Seventh Amendment or due process
requires us to remand for another jury trial.
D. Completeness of the Existing Record
Finally, the Magness Parties contend that we
cannot render a decision in favor of the Receiver
without a jury finding “as to when [the Magness
Parties] first—or initially—had suspicions [of SIB’s
fraud] or when [they] became charged with inquiry
notice.” Yet requiring a jury to make these additional
findings is not needed for us to adjudicate this case. As
the Magness Parties concede, “the determination of
whether one is on inquiry [notice] is measured by all
things known at the time of transfer.” See GMAG, 592
S.W.3d at 130 (“Whether inquiry notice exists is
determined at the time of the transfer . . . .”). The
Parties do not dispute—nor could they—that the
fraudulent transfers at issue occurred in October
2008. So, the relevant finding, which we have, is that
the Magness Parties were on inquiry notice during
this time period. And the Magness Parties have not

App-15
shown that they diligently investigated their
suspicions (initial or otherwise) of SIB’s Ponzi scheme
while on inquiry notice. Hence, they have not
demonstrated that, as a matter of law, we cannot
render a decision in favor of the Receiver based on the
existing record.
IV. CONCLUSION
For the foregoing reasons, we REVERSE the
district court’s judgment and RENDER judgment in
favor of the Receiver.

App-16
Appendix B
UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
________________
No. 17-11526
________________
RALPH S. JANVEY, in his capacity as court-appointed
receiver for the STANFORD INTERNATIONAL BANK
LIMITED et al.,
Plantiff-Appellant,
v.
GMAC, L.L.C.; MAGNESS SECURITIES, L.L.C.; GARY D.
MAGNESS; MANGO FIVE FAMILY INCORPORATED, in its
capacity as a trustee for the GARY D. MAGNESS
IRREVOCABLE TRUST,
Defendants-Appellees.
________________
Filed: Feb. 23, 2021
________________
Before: STEWART, DENNIS, and WILLETT,
Circuit Judges.
________________
ORDER
________________
PER CURIAM:
(X)

Treating the Petition for Rehearing En Banc as
a Petition for Panel Rehearing, the Petition for
Panel Rehearing is DENIED. No member of the
panel nor judge in regular active service of the
court having requested that the court be polled

App-17
on Rehearing En Banc (Fed. R. App. P. and 5TH
Cir. R. 35), the Petition for Rehearing En Banc
is DENIED.
( )



Treating the Petition for Rehearing En Banc as
a Petition for Panel Rehearing, the Petition for
Panel Rehearing is DENIED. The court having
been polled at the request of one of the members
of the court and a majority of the judges who are
in regular active service and not disqualified
not having voted in favor (Fed. R. App. P. and
5TH Cir. R. 35), the Petition for Rehearing En
Banc is DENIED.

Judge Gregg Costa, did not participate in the consideration of
the rehearing en banc.

App-18
Appendix C
UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
________________
No. 17-11526
________________
RALPH S. JANVEY, in his capacity as court-appointed
receiver for the STANFORD INTERNATIONAL BANK
LIMITED ET AL.,
Plaintiff-Appellant,
v.
GMAC, L.L.C.; MAGNESS SECURITIES, L.L.C.; GARY D.
MAGNESS; MANGO FIVE FAMILY INCORPORATED, in its
capacity as a trustee for the GARY D. MAGNESS
IRREVOCABLE TRUST,
Defendants-Appellees.
________________
Filed: Jan. 9, 2019
________________
Before: STEWART, DENNIS, and WILLETT,
Circuit Judges.
________________
OPINION
________________
CARL E. STEWART, Circuit Judge:
This case, arising out of the Stanford
International Bank Ponzi scheme, requires us to
determine whether the Texas Uniform Fraudulent
Transfer Act’s good faith affirmative defense allows
Defendants-Appellees to retain fraudulent transfers

App-19
received while on inquiry notice of the Ponzi scheme.
We hold it does not. We REVERSE the district court’s
judgment and RENDER judgment in favor of the
Plaintiff- Appellant.
I.

BACKGROUND

The SEC uncovered the Stanford International
Bank (‘‘SIB’’) Ponzi scheme in 2009. For close to two
decades, SIB issued fraudulent certificates of deposit
(‘‘CDs’’) that purported to pay fixed interest rates
higher than those offered by U.S. commercial banks as
a result of assets invested in a well-diversified
portfolio of marketable securities. In fact, the
‘‘returns’’ to investors were derived from new
investors’ funds. The Ponzi scheme left over 18,000
investors with $7 billion in losses. The district court
appointed Plaintiff-Appellant Ralph S. Janvey (‘‘the
receiver’’) to recover SIB’s assets and distribute them
to the scheme’s victims.
Defendants-Appellees are Gary D. Magness and
several entities in which he maintains his wealth
(collectively, ‘‘Magness’’). Magness was among the
largest U.S. investors in SIB. Between December 2004
and October 2006, Magness purchased $79 million in
SIB CDs. As of November 2006, Magness’s family
trust’s investment committee monitored his
investments, including the SIB CDs.
Bloomberg reported in July 2008 that the SEC
was investigating SIB. At an October 2008 meeting,
the investment committee persuaded Magness to take
back, at minimum, his accumulated interest from SIB.
The receiver asserts this decision was the result of
mounting skepticism about SIB. Magness asserts it

App-20
was because he was experiencing significant liquidity
problems given the tumbling stock market.
Later that month, Magness’s financial advisor
approached SIB for a redemption. On October 9, 2008,
SIB instead agreed to loan Magness $25 million on his
accumulated interest. SIB applied Magness’s
outstanding ‘‘accrued CD interest’’ to repay most of
this loan. In other words, Magness repaid $24.3
million of the $25 million loan with ‘‘paper interest’’
and $700,000 with cash. Between October 24 and 28,
2008, Magness borrowed an additional $63.2 million
from SIB. In total, Magness received $88.2 million in
cash from SIB in October 2008.
The receiver sued Magness to recover funds under
theories of (1) fraudulent transfer pursuant to the
Texas Uniform Fraudulent Transfer Act (‘‘TUFTA’’)
and (2) unjust enrichment. The receiver obtained
partial summary judgment as to funds in excess of
Magness’s original investment, and Magness returned
this $8.5 million in fraudulent transfers to the
receiver.
The receiver moved for partial summary
judgment, seeking a ruling that the remaining
amounts at issue were also fraudulent transfers.
Magness moved for summary judgment on his TUFTA
good faith defense and the receiver’s unjust
enrichment claim. The district court granted the
receiver’s motion and denied Magness’s motion.
Just before trial, the district court sua sponte
reconsidered its denial of Magness’s motion for
summary judgment and rejected the receiver’s unjust
enrichment claim. Thus, the only issue presented to

App-21
the jury was whether Magness received $79 million, 1
already determined to be fraudulent transfers, in good
faith. After Magness’s case-in-chief, the receiver
moved for judgment on grounds that (1) Magness was
estopped from claiming he took the transfers in good
faith and (2) no reasonable jury could conclude
Magness established TUFTA’s good faith defense. The
district court did not rule on the motion.
The jury determined that Magness had inquiry
notice that SIB was engaged in a Ponzi scheme, but
not actual knowledge. Inquiry notice was defined in
the jury instructions as ‘‘knowledge of facts relating to
the transaction at issue that would have excited the
suspicions of a reasonable person and led that person
to investigate.’’ The jury also determined that an
investigation would have been futile. A futile
investigation was defined in the jury instructions as
one where ‘‘a diligent inquiry would not have revealed
to a reasonable person that Stanford was running a
Ponzi scheme.’’
The receiver moved for entry of judgment on the
verdict, arguing that the jury’s finding of inquiry
notice defeated Magness’s TUFTA good faith defense
as a matter of law. The receiver also renewed his
motion for judgment as a matter of law. The district
court denied the receiver’s motions and held that
Magness satisfied his good faith defense. The receiver
renewed his post-trial motions and moved for a new
trial. The court denied these motions and issued its
1 Magness originally invested $79 million in SIB. He borrowed
$88.2 million in cash from SIB, but he paid $700,000 back to SIB
in cash and has already ceded $8.5 million to the receiver. The
$79 million ‘‘loaned’’ to Magness from SIB remains in dispute.

App-22
final judgment that the receiver take nothing aside
from his prior receipt of $8.5 million.
On appeal, the receiver argues that (1) Magness
was estopped from contesting his actual knowledge of
SIB’s fraud or insolvency; (2) the jury’s finding of
inquiry notice defeated Magness’s TUFTA good faith
defense as a matter of law; (3) the district court’s jury
instructions were erroneous and reduced Magness’s
burden to establish good faith; and (4) the district
court erred by granting Magness’s motion for
summary judgment on the receiver’s unjust
enrichment claim. Because this case is resolved by our
TUFTA good faith analysis, we reach only the second
of the receiver’s arguments.
II. DISCUSSION
A.
[1-3] We review de novo a renewed motion for
judgment as a matter of law. Montano v. Orange
County, 842 F.3d 865, 873 (5th Cir. 2016). If ‘‘there is
no legally sufficient evidentiary basis for a reasonable
jury to find for [a] party,’’ judgment as a matter of law
is proper. Id. Evidence is viewed ‘‘in the light most
favorable to the nonmovant.’’ Id.
B.
[4] Texas, like most states, has adopted a version
of the Uniform Fraudulent Transfer Act (‘‘UFTA’’).
UFTA was designed ‘‘to prevent debtors from
transferring their property in bad faith before
creditors can reach it.’’ BMG Music v. Martinez, 74
F.3d 87, 89 (5th Cir. 1996). TUFTA allows the recovery
of property transfers made ‘‘with actual intent to
hinder, delay, or defraud any creditor of the debtor.’’

App-23
Tex. Bus. & Com. Code § 24.005(a)(1) (2017).
Recipients of fraudulent transfers can prevent
clawback actions by proving they received property ‘‘in
good faith and for a reasonably equivalent value.’’ Id.
§ 24.009(a). Such recipients bear the burden of
proving TUFTA’s good faith defense. Flores v.
Robinson Roofing & Constr. Co., Inc., 161 S.W.3d 750,
756 (Tex. App.––Fort Worth 2005, pet. denied).
[5] The term good faith is not defined by TUFTA
or UFTA and has not been interpreted by the Supreme
Court of Texas. Lower courts analyzing TUFTA good
faith have overwhelmingly adopted an objective
definition: ‘‘A transferee who takes property with
knowledge of such facts as would excite the suspicions
of a person of ordinary prudence and put him on
inquiry of the fraudulent nature of an alleged transfer
does not take the property in good faith and is not a
bona fide purchaser.’’ Hahn v. Love, 321 S.W.3d 517,
527 (Tex. App.––Houston [1st Dist.] 2009, pet. denied);
see also GE Capital Commercial, Inc. v. Worthington
Nat’l Bank, 754 F.3d 297, 313 (5th Cir. 2014)
(describing Hahn as ‘‘the most thorough and wellreasoned Texas case applying TUFTA’s ‘good faith’
defense’’). Courts evaluating TUFTA good faith
consider whether a transferee received fraudulent
transfers with actual knowledge or inquiry notice of
fraud or insolvency. See, e.g., Citizens Nat’l Bank of
Tex. v. NXS Constr., Inc., 387 S.W.3d 74, 85 (Tex.
App.––Houston [14th Dist.] 2012, no pet.). A finding of
either defeats good faith. Id.

App-24
C.
[6] The receiver contends that the district court
impermissibly grafted a novel ‘‘futility exception’’ onto
the TUFTA good faith defense. The futility exception
arises from bankruptcy law. The Bankruptcy Code’s
fraudulent transfer section contains an affirmative
defense that mirrors TUFTA good faith. 11 U.S.C.
§ 548(c) (2017) (A transferee ‘‘that takes for value and
in
good
faith … may
retain
any
interest
transferred … to
the
extent
that
such
transferee … gave value to the debtor in exchange for
such transfer.’’). Courts interpreting § 548(c)’s good
faith defense permit transferees to ‘‘rebut’’ a finding of
inquiry notice by demonstrating that they conducted
a ‘‘diligent investigation’’ into their suspicions. See,
e.g., Templeton v. O’Cheskey, 785 F.3d 143, 164 (5th
Cir. 2015). Some courts permit defendants to rebut
inquiry notice in another way. They allow a transferee
on inquiry notice who did not investigate to retain
good faith, provided the transferee proves the
fraudulent scheme’s complexity would have rendered
any investigation futile. See, e.g., Christian Bros. High
Sch. Endowment v. Bayou No Leverage Fund, LLC,
439 B.R. 284, 317 (S.D.N.Y. Sep. 17, 2010) (‘‘Bayou
IV’’).
In a motion for summary judgment, Magness
argued that this futility exception applies to TUFTA
good faith. The district court agreed, relying on its
analysis of the issue in a Janvey v. Alguire2 order
denying summary judgment. To accept the futility
2 This case was severed from Janvey v. Alguire, No. 3:15-CV00724-N (N.D. Tex.).

App-25
exception, the district court applied O’Cheskey’s
diligent investigation requirement to TUFTA good
faith. It acknowledged that neither TUFTA nor Texas
courts describe a duty to investigate as a required part
of TUFTA’s good faith defense, citing to Hahn, but it
concluded that the Supreme Court of Texas would
adopt the diligent investigation requirement. To
support this decision, the district court observed that
the Bankruptcy Code “may be used to interpret UFTA
or its Texas equivalent.” Janvey v. Democratic
Senatorial Campaign Comm’n, Inc., 712 F.3d 185, 194
(5th Cir. 2013) (“DSCC”). The district court also noted
that neither party was opposed to applying
O’Cheskey’s diligent investigation requirement to
TUFTA good faith.
The district court next determined that the
diligent investigation requirement obligated a futility
exception. The district court based its decision on a
lack of binding authority requiring the conclusion that
a transferee on inquiry notice who fails to investigate
lacks good faith. Both the parties and the district court
considered cases analyzing bankruptcy good faith
rather than TUFTA good faith. Ultimately, the district
court held that a transferee with inquiry notice must
conduct a diligent investigation into the facts that put
the transferee on inquiry notice to retain TUFTA good
faith. In the alternate, a transferee could satisfy
TUFTA good faith by proving that such an
investigation would have been futile.
Because the district court denied Magness’s
motion for summary judgment on TUFTA good faith,
the questions of notice and futility were left to the
jury. While the jury determined Magness was on

App-26
inquiry notice of SIB’s Ponzi scheme, it also
determined that an investigation into thescheme
would have been futile. The district court thus
determined that Magness retained good faith. The
receiver asks this court to reject the district court’s
application of the futility exception to TUFTA good
faith and find that, under Hahn, the jury’s finding of
inquiry notice defeats Magness’s TUFTA good faith
defense as a matter of law.
D.
[7] The Supreme Court of Texas has not
addressed whether TUFTA good faith requires a
diligent investigation or a corresponding futility
exception, so we must make an “Erie guess” as to the
exception’s applicability. SMI Owen Steel Co., Inc. v.
Marsh USA, Inc., 520 F.3d 432, 437 (5th Cir. 2008);
see also Erie R.R. Co. v. Tompkins, 304 U.S. 64, 58
S.Ct. 817, 82 L.Ed. 1188 (1938). We rely on the state
lower courts and other persuasive authorities to guide
our inquiry. GE Capital, 754 F.3d at 311.
Texas lower courts and federal district courts
considering TUFTA good faith rely on Hahn to hold
that transferees found to have actual knowledge or
inquiry notice of fraud cannot claim TUFTA’s good
faith defense. Citizens Nat’l, 387 S.W.3d at 84-86
(upholding jury’s finding that transferee had either
actual or inquiry notice, which defeated TUFTA good
faith defense); Vasquez v. Old Austin Rd. Land Tr.,
No. 04-16-00025-CV, 2017 WL 3159466, at *3 (Tex.
App.––San Antonio 2017, pet. denied) (concluding
that the trial court erred by granting transferee
TUFTA good faith on summary judgment because of
evidence that the transferees were on inquiry notice);

App-27
SEC v. Helms, No. A-13-CV-1036 ML, 2015 WL
1040443, at *14 (W.D. Tex. Mar. 10, 2015) (ordering
TUFTA good faith defeated in the absence of actual
knowledge of fraud because of evidence that ‘‘would
have led a reasonable investor to believe the transfer
was fraudulent’’); see also Hahn, 321 S.W.3d at 527-29
(denying motion for summary judgment on TUFTA
good faith because of evidence supporting a finding of
actual knowledge or inquiry notice).
We have previously approved of Hahn’s
conception of TUFTA good faith and upheld a district
court’s Hahn-based jury instructions. GE Capital, 754
F.3d at 313 (relying on Hahn to determine that
TUFTA good faith requires an objective analysis). The
jury instructions stated in relevant part: “To establish
that it acted in good faith, [the transferee] must prove
by a preponderance of the evidence that it lacked
actual and [inquiry] knowledge of the debtor’s fraud.”
Id. at 301. The instructions did not ask the jurors to
determine whether an investigation would have been
futile. Id. And in fact, no court has considered
extending TUFTA good faith to a transferee on inquiry
notice who later shows an investigation would have
been futile.
The court below is the first to supplement Hahn’s
TUFTA good faith analysis with interpretations of
Bankruptcy Code good faith. 11 U.S.C. § 548(c). We
have in prior decisions relied on § 548 to interpret
various TUFTA provisions because TUFTA is based
on UFTA, which itself is based on § 548. See, e.g.,
DSCC, 712 F.3d at 194 (applying an analysis of
§ 548(a)(1) to an analysis of TUFTA § 24.005(a)(1)).
However, we have previously declined to rely on

App-28
§ 548(c) to interpret TUFTA good faith. GE Capital,
754 F.3d at 312 n.21 (“We do not base our Erie guess
on bankruptcy jurisprudence … Certain authorities
indicate that § 548 is not necessarily substantively
congruent with state-law counterparts, despite a
common ancestry.”).
[7] Our prior disinclination to rely on § 548(c) to
interpret TUFTA good faith is reinforced by the fact
that neither § 548(c)’s text nor its legislative history
defines good faith. Jimmy Swaggart Ministries v.
Hayes, 310 F.3d 796, 800 (5th Cir. 2002). As a result,
courts applying the good faith defense disagree “as to
what conditions ought to allow a transferee this
defense.” Id. Even courts that agree on certain
conditions disagree as to the meanings of those
conditions. For example, this court has agreed with
others that a transferee on inquiry notice “must
satisfy a ‘diligent investigation’ requirement” to
succeed on a § 548(c) good faith defense. Templeton,
785 F.3d at 164 (quoting Horton v. O’Cheskey, 544 F.
App’x 516, 520 (5th Cir. 2013)). But we have not had
the opportunity to define this requirement, and ‘‘the
case law is not clear’’ as to its nature. Bayou IV, 439
B.R. at 312. Courts also disagree as to whether §
548(c) permits a futility exception. Compare id. at 317
(articulating the futility exception), with Zayed v.
Buysse, No. 11-CV-1042 (SRN/FLN), 2012 WL
12893882, at *22-23 (D. Minn. Sep. 27, 2012)
(rejecting the futility exception). This lack of
conformity counsels against relying on § 548(c)
interpretations to construe TUFTA good faith.
[9] Even if we relied on § 548(c) as guidance for
applying TUFTA good faith, the futility exception’s

App-29
inquiry does not implicate TUFTA good faith’s central
question: whether, at the time he receives property, a
transferee has knowledge that “would excite the
suspicions of a person of ordinary prudence and put
him on inquiry” of that property’s fraudulent nature.
Hahn, 321 S.W.3d at 527. Regardless of the intricate
nature of a fraud or scheme, failing to inquire when on
inquiry notice does not indicate good faith. Helms,
2015 WL 1040443, at *14.
The TUFTA good faith affirmative defense is an
exception to the rule that fraudulent transfers must
be returned. No prior court considering TUFTA good
faith has applied a futility exception to this exception,
and we decline to hold that the Supreme Court of
Texas would do so. Transferees seeking to retain
fraudulent transfers might offer up evidence of
undertaken investigations to prove a reasonable
person’s suspicions would not have been aroused when
the transfer was received. Id. at *14. But the fact that
a fraud or scheme is later determined to be too
complex for discovery does not excuse a finding of
inquiry notice and does not warrant the application of
TUFTA good faith. Because the jury determined
Defendants-Appellees were on inquiry notice when
they received $79 million in fraudulent transfers,
their TUFTA good faith defense is defeated.
III. CONCLUSION
For the foregoing reasons, we REVERSE the
district court’s judgment and RENDER judgment in
favor of the receiver.

App-30
Appendix D
UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
________________
No. 17-11526
________________
RALPH S. JANVEY, in his capacity as court-appointed
receiver for the STANFORD INTERNATIONAL BANK
LIMITED et al.,
Plaintiff-Appellant,
v.
GMAC, L.L.C.; MAGNESS SECURITIES, L.L.C.; GARY D.
MAGNESS; MANGO FIVE FAMILY INCORPORATED, in its
capacity as a trustee for the GARY D. MAGNESS
IRREVOCABLE TRUST,
Defendants-Appellees.
________________
Filed: May 24, 2019
________________
Before: STEWART, Chief Judge,
DENNIS, and WILLETT, Circuit Judges.
________________
ORDER
________________
PER CURIAM:
The original opinion in this case was filed on
January 9, 2019. Janvey v. GMAG, LLC, 913 F.3d 452
(5th Cir. 2019). There, we held that a transferee on
inquiry notice of a transfer’s fraudulent nature is not
entitled to the Texas Uniform Fraudulent Transfer

App-31
Act’s (“TUFTA”) good faith affirmative defense.
Because the jury determined that the DefendantsAppellees were on inquiry notice of the fraudulent
nature of transfers received from a Ponzi scheme, we
reversed the district court’s judgment and rendered
judgment in favor of the Plaintiff-Appellant.
Defendants-Appellees submitted a petition for panel
rehearing and a petition for rehearing en banc, which
are now pending before the court. In these petitions,
Defendants-Appellees requested, in the alternative,
that we certify a question to the Supreme Court of
Texas on grounds that interpreting TUFTA’s good
faith defense is a significant issue of first impression,
and the panel’s interpretation differs from that of
other jurisdictions to analyze their own Uniform
Fraudulent Transfer Act (“UFTA”) good faith
defenses.
The petition for panel rehearing is GRANTED,
the original opinion is VACATED, and the panel
substitutes the following opinion certifying a question
to the Supreme Court of Texas.
CERTIFICATION FROM THE UNITED STATES
COURT OF APPEALS FOR THE FIFTH CIRCUIT
TO THE SUPREME COURT OF TEXAS,
PURSUANT TO THE TEXAS CONSTITUTION ART.
5 § 3–C AND TEXAS RULE OF APPELLATE
PROCEDURE 58.1.
I.

BACKGROUND

The SEC uncovered the Stanford International
Bank (“SIB”) Ponzi scheme in 2009. For close to two
decades, SIB issued fraudulent certificates of deposit
(“CDs”) that purported to pay fixed interest rates
higher than those offered by U.S. commercial banks as

App-32
a result of assets invested in a well-diversified
portfolio of marketable securities. In fact, the
“returns” to investors were derived from new
investors’ funds. The Ponzi scheme left over 18,000
investors with $7 billion in losses. The district court
appointed Plaintiff-Appellant Ralph S. Janvey (“the
receiver”) to recover SIB’s assets and distribute them
to the scheme’s victims.
Defendants-Appellees are Gary D. Magness and
several entities in which he maintains his wealth
(collectively, “Magness”). Magness was among the
largest U.S. investors in SIB. Between December 2004
and October 2006, Magness purchased $79 million in
SIB CDs. As of November 2006, Magness’s family
trust’s investment committee monitored his
investments, including the SIB CDs.
Bloomberg reported in July 2008 that the SEC
was investigating SIB. At an October 2008 meeting,
the investment committee persuaded Magness to take
back, at minimum, his accumulated interest from SIB.
The receiver asserts this decision was the result of
mounting skepticism about SIB. Magness asserts it
was because he was experiencing significant liquidity
problems given the tumbling stock market.
Later that month, Magness’s financial advisor
approached SIB for a redemption. On October 9, 2008,
SIB instead agreed to loan Magness $25 million on his
accumulated interest. SIB applied Magness’s
outstanding “accrued CD interest” to repay most of
this loan. In other words, Magness repaid $24.3
million of the $25 million loan with “paper interest”
and $700,000 with cash. Between October 24 and 28,
2008, Magness borrowed an additional $63.2 million

App-33
from SIB. In total, Magness received $88.2 million in
cash from SIB in October 2008.
The receiver sued Magness to recover funds under
theories of (1) TUFTA fraudulent transfer and
(2) unjust enrichment. The receiver obtained partial
summary judgment as to funds in excess of Magness’s
original investment, and Magness returned this $8.5
million in fraudulent transfers to the receiver.
The receiver moved for partial summary
judgment, seeking a ruling that the remaining
amounts at issue were also fraudulent transfers.
Magness moved for summary judgment on his TUFTA
good faith defense and the receiver’s unjust
enrichment claim. The district court granted the
receiver’s motion and denied Magness’s motion.
Just before trial, the district court sua sponte
reconsidered its denial of Magness’s motion for
summary judgment and rejected the receiver’s unjust
enrichment claim. Thus, the only issue presented to
the jury was whether Magness received $79 million, 1
already determined to be fraudulent transfers, in good
faith. After Magness’s case-in-chief, the receiver
moved for judgment on grounds that (1) Magness was
estopped from claiming he took the transfers in good
faith and (2) no reasonable jury could conclude that
Magness established TUFTA’s good faith defense. The
district court did not rule on the motion.

Magness originally invested $79 million in SIB. He borrowed
$88.2 million in cash from SIB, but he paid $700,000 back to
SIB in cash and has already ceded $8.5 million to the receiver.
The $79 million ‘‘loaned’’ to Magness from SIB remains in
dispute.
1

App-34
The jury determined that Magness had inquiry
notice that SIB was engaged in a Ponzi scheme, but
not actual knowledge. Inquiry notice was defined in
the jury instructions as “knowledge of facts relating to
the transaction at issue that would have excited the
suspicions of a reasonable person and led that person
to investigate.” The jury also determined that an
investigation would have been futile. A futile
investigation was defined in the jury instructions as
one where “a diligent inquiry would not have revealed
to a reasonable person that Stanford was running a
Ponzi scheme.”
The receiver moved for entry of judgment on the
verdict, arguing that the jury’s finding of inquiry
notice defeated Magness’s TUFTA good faith defense
as a matter of law. The receiver also renewed his
motion for judgment as a matter of law. The district
court denied the receiver’s motions and held that
Magness satisfied his good faith defense. The receiver
renewed his post-trial motions and moved for a new
trial. The court denied these motions and issued its
final judgment that the receiver take nothing aside
from his prior receipt of $8.5 million.
On appeal, the receiver argued that (1) Magness
was estopped from contesting his actual knowledge of
SIB’s fraud or insolvency; (2) the jury’s finding of
inquiry notice defeated Magness’s TUFTA good faith
defense as a matter of law; (3) the district court’s jury
instructions were erroneous and reduced Magness’s
burden to establish good faith; and (4) the district
court erred by granting Magness’s motion for
summary judgment on the receiver’s unjust
enrichment claim.

App-35
We initially decided this case on the second issue.
Relying on the text of TUFTA and interpretations by
the Texas lower courts, our court, and our circuit’s
district courts, we reversed the district court’s
judgment and rendered judgment in favor of the
receiver. Magness filed petitions for panel rehearing
and rehearing en banc, in which he raised the
argument that we should certify the question of
TUFTA good faith to the Supreme Court of Texas.
Because the Texas courts to consider TUFTA good
faith have not considered whether it includes a
diligent investigation requirement or a futility
exception, we certify the question––whether TUFTA
good faith requires a transferee on inquiry notice to
conduct an investigation or show such an
investigation would have been futile––to the Supreme
Court of Texas. See In re Katrina Canal Breaches
Litig., 613 F.3d 504, 509 (5th Cir. 2010) (quoting Free
v. Abbott Labs., 164 F.3d 270, 274 (5th Cir. 1999))
(“[C]ertification may be advisable where important
state interests are at stake and the state courts have
not provided clear guidance on how to proceed.”).
II. DISCUSSION
Texas, like most states, has adopted a version of
UFTA, which was designed “to prevent debtors from
transferring their property in bad faith before
creditors can reach it.” BMG Music v. Martinez, 74
F.3d 87, 89 (5th Cir. 1996). Like UFTA, TUFTA allows
the recovery of property transfers made “with actual
intent to hinder, delay, or defraud any creditor of the
debtor.” Tex. Bus. & Com. Code § 24.005(a)(1).
Recipients of fraudulent transfers can prevent
clawback actions by proving they received property “in

App-36
good faith and for a reasonably equivalent value.” Id.
§ 24.009(a). Such recipients bear the burden of
proving TUFTA’s good faith defense. Flores v.
Robinson Roofing & Constr. Co., Inc., 161 S.W.3d 750,
756 (Tex. App.––Fort Worth 2005, pet. denied).
The term good faith is not defined by TUFTA or
UFTA and has not been interpreted by the Supreme
Court of Texas. The most prominent definition of
TUFTA good faith requires that to retain good faith, a
transferee cannot possess either actual or inquiry
notice of a transfer’s fraudulent nature. Hahn v. Love,
321 S.W.3d 517, 527 (Tex. App.––Houston [1st Dist.]
2009, pet. denied) (“A transferee who takes property
with knowledge of such facts as would excite the
suspicions of a person of ordinary prudence and put
him on inquiry of the fraudulent nature of an alleged
transfer does not take the property in good faith and
is not a bona fide purchaser.”); see also GE Capital
Commercial, Inc. v. Worthington Nat’l Bank, 754 F.3d
297, 313 (5th Cir. 2014) (describing Hahn as “the most
thorough and well-reasoned Texas case applying
TUFTA’s ‘good faith’ defense”); Tex. Pattern Jury
Charges––Bus., Consumer, Ins. & Emp’t § 105.29
(2016 ed.) (“A party takes an asset … in good faith if
the party (1) had no actual notice of the fraudulent
intent of the debtor and (2) lacked knowledge of such
facts as would cause a person of ordinary prudence to
question whether the debtor had fraudulent intent.”).
There is no dispute that Magness was on inquiry
notice of the fraudulent nature of SIB’s transfers. The
jury made this finding. We also know that Magness
did not undertake an investigation prior to accepting
the transfers. As the court below explained in a pre-

App-37
judgment order, “[t]he parties agree that the
Defendants [Magness] did not perform any inquiry
before redeeming their CDs. However, the Defendants
argue that they are excused from this requirement
because any investigation would have been futile and
would not have led to discovery of Stanford’s
fraudulent purpose.” This brings us to the crux of this
case: does TUFTA good faith require a transferee on
inquiry notice to conduct an investigation, and if so,
can that transferee retain the good faith defense if he
does not conduct an investigation but later convinces
the factfinder that such an investigation would not
have turned up the fraudulent purpose?
The lower court answered yes to both questions.
It acknowledged that “[n]either TUFTA nor Texas
courts explicitly describe a duty to investigate as a
required part of TUFTA’s good faith defense. See, e.g.,
Hahn, 321 S.W.3d at 526-27.” However, the court, “in
making an Erie guess as to how Texas law would
apply,” found it reasonable to adopt the approach
taken by the Fifth Circuit in interpreting the
Bankruptcy Code’s mirror image good faith defense to
fraudulent transfer. See 11 U.S.C. § 548(c) (A
transferee “that takes for value and in good
faith … may retain any interest transferred … to the
extent that such transferee … gave value to the debtor
in exchange for such transfer.”). The Fifth Circuit, like
many other courts interpreting § 548(c) good faith,
permits transferees to “rebut” a finding of inquiry
notice by demonstrating that they conducted a
“diligent investigation” into their suspicions. In re Am.
Hous. Found., 785 F.3d 143, 164 (5th Cir. 2015).
Neither Magness nor the receiver disputed this case’s
application. Thus, the lower court decided that a

App-38
transferee on inquiry notice must conduct a diligent
investigation to retain the TUFTA good faith defense.
The lower court next determined that the diligent
inquiry requirement obligated a futility exception.
While the court found no controlling Texas or Fifth
Circuit law on point, it was persuaded that a
transferee meets the diligent inquiry requirement if
he shows that an investigation would have been futile.
Because the district court denied Magness’s motion for
summary judgment on TUFTA good faith, the
questions of inquiry notice and futility were presented
to the jury. While the jury determined Magness was
on inquiry notice of SIB’s Ponzi scheme, it also
determined that an investigation into the scheme
would have been futile. The district court thus
determined that Magness retained good faith. On
appeal, the receiver asked this court to reject the
district court’s application of the futility exception to
TUFTA good faith and find that, under Hahn, the
jury’s finding of inquiry notice defeats Magness’s
TUFTA good faith defense as a matter of law.
In our prior opinion, we agreed with the receiver
and held that “[r]egardless of the intricate nature of a
fraud or scheme, failing to inquire when on inquiry
notice does not indicate good faith.” GMAG, 913 F.3d
at 458. Our holding aligns with other decisions
interpreting TUFTA good faith. See Citizens Nat’l
Bank of Tex. v. NXS Constr., Inc., 387 S.W.3d 74, 8486 (Tex. App.––Houston [14th Dist.] 2012, no pet.)
(upholding jury’s finding that transferee had either
actual or inquiry notice, which defeated the TUFTA
good faith defense); Vasquez v. Old Austin Rd. Land
Tr., No. 04-16-00025-CV, 2017 WL 3159466, at *3

App-39
(Tex. App.––San Antonio 2017) (concluding that the
trial court erred by granting the transferee TUFTA
good faith on summary judgment because of evidence
that the transferees were on inquiry notice); SEC v.
Helms, No. A-13-CV-1036 ML, 2015 WL 1040443, at
*14 (W.D. Tex. Mar. 10, 2015) (denying TUFTA good
faith in the absence of actual knowledge of fraud
because of evidence that “would have led a reasonable
investor to believe the transfer was fraudulent”);
Hahn, 321 S.W.3d at 531 (denying motion for
summary judgment on TUFTA good faith because of
evidence supporting a finding of actual knowledge or
inquiry notice).
In Citizens National, a Texas court of appeals
evaluated a jury’s rejection of a TUFTA good faith
defense. 387 S.W.3d at 85-86. The jury instructions
were pulled directly from Hahn’s definition of good
faith: they instructed that good faith was defeated on
grounds of actual or inquiry notice. Id. The court
upheld the jury’s finding that one transferee had
either actual or inquiry notice and thus did not prove
the TUFTA good faith defense. Id. Magness argues
this case is not on point because the court found the
transferee “knew the transfer was fraudulent as to
some creditors,” and thus had actual notice––not
inquiry notice. Id. at 86. However, another Texas case
relied on the same principle to find inquiry notice
sufficient to defeat the TUFTA good faith defense. See
Vasquez, 2017 WL 3159466, at *3 (holding that the
trial court erred in granting transferee TUFTA good
faith on summary judgment because of evidence
“sufficient to raise a genuine issue of material fact as
to whether the appellees had [inquiry] notice that the
appellants had a claim or interest in the property”).

App-40
Federal courts have adhered to the Hahn
standard as well. The Fifth Circuit, evaluating
whether the TUFTA good faith defense required an
objective or subjective analysis, upheld a district
court’s Hahn-based jury instructions. GE Capital, 754
F.3d at 313. The jury instructions stated in relevant
part: “To establish that it acted in good faith,
[transferee] must prove by a preponderance of the
evidence that it lacked actual and [inquiry] knowledge
of the debtor’s fraud.” Id. at 301. The instructions did
not consider whether the transferee investigated his
suspicions or whether such an investigation would
have been futile. Id. A federal district court, relying on
Hahn, similarly held that though it believed two
transferees received transfers without actual
knowledge of fraud, their TUFTA good faith defense
was defeated because “there was significant evidence
that should have led [transferee] to investigate
[transferor] and the purported security interest it
sought to acquire, and would have led a reasonable
investor to believe the transfer was fraudulent.”
Helms, 2015 WL 1040443, at *14. In other words,
inquiry notice defeated the TUFTA good faith defense.
Magness does not offer cases interpreting TUFTA
good faith differently. Instead, he argues that the
Supreme Court of Texas has interpreted inquiry
notice differently in the real property context. The
Supreme Court of Texas previously held that a party
who purchases land while on inquiry notice “is
charged with notice of all the occupant’s claims the
purchaser might have reasonably discovered on
proper inquiry.” Madison v. Gordon, 39 S.W.3d 604,
606 (Tex. 2001). But under Texas law, purchasers are
subject to a preceding duty to “search the records, for

App-41
they are the primary source of information as to title.”
Strong v. Strong, 98 S.W.2d 346, 348 (Tex. 1936). This
duty does not arise from the definition of inquiry
notice––it informs it. And while there is a diligent
investigation requirement, there is no futility
exception: “[t]he purchaser cannot say, and cannot be
allowed to say, that he made a proper inquiry, and
failed to ascertain the truth.” Id. (citation omitted).
Magness also relies on the fact that other state
courts have interpreted their UFTA provisions to
include a diligent inquiry requirement for transferees
on inquiry notice. See, e.g., Carey v. Soucy, No. 1 CACV 17-0533, 2018 WL 5556454, at *5 (Ariz. Ct. App.
Oct. 30, 2018). However, we found no example of a
court applying the diligent inquiry requirement to
hold that a transferee retains good faith when he was
on inquiry notice and did not investigate prior to
accepting a transfer. In fact, three courts applying this
requirement held that transferees in this position did
not act in good faith. In re Christou, Nos. 06-68251MHM, 06-68376-MHM, 06-68251-MHM, 2010 WL
4008191, at *3-4 (Bankr. N.D. Ga. Sept. 24, 2010);
Walro v. Hatfield, No. 1:16-cv-3053-RLY-DML, 2017
WL 2772335, at *7 (S.D. Ind. June 27, 2017); Klein v.
McGraw, No. 2:12-cv-00102-BSJ, 2014 WL 1492970,
at *2, *8 (D. Utah Apr. 15, 2014).2 But,
notwithstanding these congruent outcomes, we
recognize that other states have adopted a standard
that the Texas courts have yet to consider. While the
2 Reviewing these decisions, it appears that the jury’s findings
that Magness was on inquiry notice but would not have
uncovered the Ponzi scheme had he investigated may sit in
tension.

App-42
Texas courts have interpreted TUFTA good faith, they
have not discussed the applicability of either the
diligent inquiry requirement or the futility exception.
Given that other states’ UFTA good faith defenses
have taken on a standard not considered by the Texas
courts, we CERTIFY the following question to the
Supreme Court of Texas:
Is the Texas Uniform Fraudulent Transfer
Act’s “good faith” defense against fraudulent
transfer clawbacks, as codified at Tex. Bus. &
Com. Code § 24.009(a), available to a
transferee who had inquiry notice of the
fraudulent behavior, did not conduct a
diligent inquiry, but who would not have been
reasonably able to discover that fraudulent
activity through diligent inquiry?
“We disclaim any intention or desire that the
Supreme Court of Texas confine its reply to the precise
form or scope of the question certified.” Janvey v. Golf
Channel, Inc., 792 F.3d 539, 547 (5th Cir. 2015).
[SEAL]
A True Copy
Certified May 24, 2019
[handwritten: signature]
Clerk, U.S. Court of
Appeals, Fifth Circuit

App-43
Appendix E
THE SUPREME COURT OF TEXAS
________________
No. 19-0452
________________
RALPH S. JANVEY, in his capacity as court-appointed
receiver for the STANFORD INTERNATIONAL BANK
LIMITED et al.,
Appellants,
v.
GMAC, L.L.C.; MAGNESS SECURITIES, L.L.C.; GARY D.
MAGNESS; MANGO FIVE FAMILY INCORPORATED, in its
capacity as a trustee for the GARY D. MAGNESS
IRREVOCABLE TRUST,
Appellees.
________________
Filed: Dec. 20, 2019
________________
OPINION
________________
JUSTICE BUSBY delivered the opinion of the Court.
The Texas Uniform Fraudulent Transfer Act
(TUFTA) is “designed to protect creditors from being
defrauded or left without recourse due to the actions
of unscrupulous debtors.” KCM Fin. LLC v. Bradshaw,
457 S.W.3d 70, 89 (Tex. 2015). Creditors may invoke
TUFTA to “claw back” fraudulent transfers from their
debtors to third-party transferees. Yet even if a
transfer is fraudulent, the statute does not always
require the transferee to relinquish the transferred

App-44
asset. If the transferee proves as an affirmative
defense that it acted in good faith and the transfer was
for a reasonably equivalent value, it may keep the
transferred asset.
The U.S. Court of Appeals for the Fifth Circuit has
requested our guidance on what constitutes good faith
under TUFTA. Specifically, the Fifth Circuit asks
whether a transferee on inquiry notice of fraudulent
intent can achieve good faith without investigating its
suspicions. Without comprehensively defining the
contours of TUFTA’s good-faith defense, we answer
the question no. When a transferee on inquiry notice
attempts to use TUFTA’s affirmative defense to shield
the transfer from the statute’s clawback provision, it
must show at minimum that it investigated its
suspicions diligently. The investigation may not turn
up additional evidence of fraud that should be imputed
to the transferee, but that result does not negate the
suspicions that a transferee on inquiry notice has at
the time of the transfer. An investigation is an
opportunity for the transferee to demonstrate its good
faith, and requiring proof of an investigation negates
any incentive transferees may have to remain willfully
ignorant of fraud.
BACKGROUND
Stanford International Bank, Ltd. (the Bank) ran
a highly complex Ponzi scheme for almost two decades
that attracted over $7 billion in investments. The
Bank sold fraudulent certificates of deposit and issued
“returns” to its old investors with money procured
from new investors. The Bank deceived over 18,000
investors before the Securities and Exchange
Commission (SEC) uncovered the scheme in 2009.

App-45
Appellee Gary D. Magness and several entities
through which Magness invested his funds
(collectively, Magness) were among the investors
deceived by the Bank. Magness was one of the largest
investors, purchasing $79 million of the fraudulent
certificates of deposit. Magness withdrew his
investments from the Bank sometime after news of the
SEC’s investigation became public. In 2008, Magness
recovered $88.2 million through loans from the Bank:
his original investment of $79 million and $9.2 million
of “accrued interest” credited to his account with the
Bank. He later repaid $700,000 to the Bank, so his net
return was $8.5 million.
Once the SEC discovered the Bank’s Ponzi
scheme, a federal district court appointed appellant
Ralph S. Janvey (the Receiver) to recover the Bank’s
assets and distribute them among the investors
equitably. The Receiver sought return of Magness’s
net payout from the Bank.
The Receiver sued Magness in federal district
court to recover these funds, alleging (1) Magness’s
withdrawal from the Bank should be avoided because
it constituted a fraudulent transfer under TUFTA,
and (2) Magness was unjustly enriched. Janvey v.
GMAG, L.L.C., 913 F.3d 452, 454 (5th Cir. 2019),
vacated and superseded on reh’g, 925 F.3d 229 (5th
Cir. 2019). Magness responded that he satisfied
TUFTA’s good-faith defense, thus preventing the
Receiver from avoiding the Bank’s transfer to
Magness. The district court granted the Receiver’s
motion for partial summary judgment for the net
amount Magness received from the Bank in excess of
his investment; Magness subsequently paid the

App-46
Receiver this $8.5 million. Id. The district court left to
the jury, however, whether the Receiver was entitled
to claw back Magness’s original $79 million
investment. Id. The district court also denied
Magness’s motions for partial summary judgment
regarding his defense of good faith and the Receiver’s
claim of unjust enrichment. Id.
Following trial, the jury found Magness had
inquiry notice of the Ponzi scheme. Id. at 454-55. The
jury charge provided: “Inquiry notice is knowledge of
facts relating to the transaction at issue that would
have excited the suspicions of a reasonable person and
led that person to investigate.” Id. at 454. The next
question in the charge asked whether “a diligent
inquiry would … have revealed to a reasonable person
that Stanford was running a Ponzi scheme.” Id. at 455.
The jury found that “an investigation [would] have
been futile.” Id. The district court denied the
Receiver’s motion for entry of judgment on the verdict
and renewed motion for judgment as a matter of law,
holding that Magness satisfied his good-faith
affirmative defense. Id.
The Receiver appealed to the Fifth Circuit, raising
several issues. Id. As relevant here, the Receiver
contended “the jury’s finding of inquiry notice defeated
Magness’s TUFTA good faith defense as a matter of
law.” Id. The Fifth Circuit agreed and reversed the
district court’s judgment, rendering judgment for the
Receiver. Id. at 458. Specifically, the Fifth Circuit
determined that Magness failed to satisfy TUFTA’s
good-faith affirmative defense and that there is no
“futility exception” to that defense. Id.

App-47
Following the Fifth Circuit’s decision, Magness
sought rehearing. He urged the Fifth Circuit to certify
the good-faith question instead of relying on its Erie
guess. The Fifth Circuit vacated its prior opinion and
certified the following question, which we accepted:
Is the Texas Uniform Fraudulent Transfer
Act’s “good faith” defense against fraudulent
transfer clawbacks, as codified at Tex. Bus. &
Com. Code § 24.009(a), available to a
transferee who had inquiry notice of the
fraudulent behavior, did not conduct a
diligent inquiry, but who would not have been
reasonably able to discover that fraudulent
activity through diligent inquiry?
Janvey v. GMAG, L.L.C., 925 F.3d 229, 235 (5th Cir.
2019).
ANALYSIS
May a transferee on inquiry notice of a fraudulent
transfer satisfy TUFTA’s good-faith defense without
conducting a diligent investigation? We conclude that
the answer is no. If a transferee has actual knowledge
of facts that would lead a reasonable person to suspect
the transfer is voidable under TUFTA but does not
investigate, the transferee may not achieve good-faith
status to avoid TUFTA’s clawback provision—
regardless of whether the transferee reasonably could
have discovered the fraudulent activity through
diligent inquiry.
I.

Standard and scope of review

“The Supreme Court of Texas may answer
questions of law certified to it by any federal appellate
court if the certifying court is presented with

App-48
determinative questions of Texas law having no
controlling Supreme Court precedent.” Tex. R. App. P.
58.1; accord Tex. Const. art. V, § 3-c(a). The question
certified requires us to interpret section 24.009 of the
Texas Business and Commerce Code. GMAG, 925 F.3d
at 235. We are asked to determine how a transferee
found to be on inquiry notice can prove good faith to
qualify for section 24.009’s affirmative defense, which
is a question of law. Id.
Although the Fifth Circuit certified its question
without limiting this Court’s response, we typically
“provide answers solely as to the status of Texas law
on the questions asked.” Interstate Contracting Corp.
v. City of Dallas, 135 S.W.3d 605, 620 (Tex. 2004). This
certified question is narrow and assumes the
transferee did not investigate the suspicious
circumstances initially raising concern.1 We limit our
holding to this question.
II. TUFTA protects creditors but provides an
affirmative defense for transferees.
The Uniform Fraudulent Transfer Act (UFTA)
was created to ensure defrauded creditors attain
similar remedies. See Unif. Fraudulent Transfer Act
Prefatory Note, 7A pt. II U.L.A. 4-7 (2006). Creditors
may circumvent transfers made or obligations
incurred by their debtors in certain circumstances,
including where the transfer was made or obligation
1 “How our answer is to be applied to the facts of this case is the
province of the certifying court.” Interstate Contracting Corp., 135
S.W.3d at 620 (citing Amberboy v. Societe de Banque Privee, 831
S.W.2d 793, 798 (Tex. 1992)). Therefore, although Magness
asserted in his briefing and at oral argument that he actually
investigated his suspicions, we express no opinion on that issue.

App-49
incurred with the intent to hinder, delay, or defraud
any creditor. Id. § 7. Because “the intent to hinder,
delay, or defraud creditors is seldom susceptible of
direct proof,” UFTA provides badges of fraud on which
creditors and courts can rely. Id. at Prefatory Note.
UFTA
allows
defrauded
creditors
to
“obtain … avoidance of the transfer or obligation to
the extent necessary to satisfy” their claims. Id.
§ 7(a)(1).
At least twenty-five jurisdictions have adopted
some version of UFTA. Id. at Prefatory Note. Texas
joined that group in 1987. Tex. Bus. & Com. Code ch.
24. TUFTA’s purpose mirrors UFTA’s and is designed
“to prevent debtors from prejudicing creditors by
improperly moving assets beyond their reach.” Janvey
v. Golf Channel, Inc., 487 S.W.3d 560, 566 (Tex. 2016).
TUFTA provides its own badges of fraud in “a list of
eleven, nonexclusive indicia of fraudulent intent.” Id.
Similar to UFTA, TUFTA’s badges provide guidance
in determining whether a transfer was made or
obligation incurred with actual intent to hinder, delay,
or defraud a creditor. Bus. & Com. Code § 24.005(b). If
so, a creditor may invoke TUFTA’s clawback provision
to avoid the transfer or obligation, or to obtain certain
other remedies. Id. § 24.008.
Avoidance is not unbridled, however. TUFTA
protects a transferee against avoidance of a fraudulent
transfer (or an obligee against avoidance of a
fraudulent obligation) if it can prove it “took in good
faith and for a reasonably equivalent value.” Id.
§ 24.009(a). We have previously considered the
“reasonably equivalent value” prong of this defense.

App-50
See generally Golf Channel, 487 S.W.3d 560. Today,
we address the “good faith” prong.
III. The “good faith” prong of the transferee’s
defense includes concepts of inquiry notice,
honesty in fact, and lack of willful
ignorance.
TUFTA does not define good faith. Cf. Bus. &
Com. Code § 24.002 (listing defined terms). UFTA,
which we have used previously to interpret TUFTA,2
similarly fails to define good faith. When a statute
does not define a word or phrase, we look to its plain
or common meaning. In re Lipsky, 460 S.W.3d 579, 590
(Tex. 2015). Mindful of TUFTA’s instruction that
“principles of law and equity … supplement its
provisions,” Bus. & Com. Code § 24.011, we also
consider the common law in determining the meaning
of good faith.
Good faith has been defined as “[a] state of mind
consisting in (1) honesty in belief or purpose,
(2) faithfulness to one’s duty or obligation,
(3) observance of reasonable commercial standards of
fair dealing . . . , or (4) absence of intent to defraud or
to seek unconscionable advantage.” Good Faith,
Black’s Law Dictionary (11th ed. 2019).3 We have
explained that good faith “requires conduct that is
honest in fact and is free of both improper motive and
willful ignorance of the facts at hand.” Gulf Energy,
Cf. Golf Channel, 487 S.W.3d at 572-73 (using UFTA to
construe TUFTA’s “reasonably equivalent value” prong).
2

3 See R.R. Comm’n of Tex. v. Gulf Energy Expl. Corp., 482
S.W.3d 559, 568 (Tex. 2016) (using dictionary to give undefined
term in Natural Resources Code its plain meaning).

App-51
482 S.W.3d at 569 (defining good faith in the Texas
Natural Resources Code when the Railroad
Commission mistakenly plugged an offshore well).
And we have recognized “reasonableness” as a
component of good faith. Wichita County v. Hart, 917
S.W.2d 779, 786 (Tex. 1996) (combining “honesty in
fact” with “reasonableness” to define what constitutes
good faith under the Whistleblower Act).
We conclude that the meaning of good faith under
TUFTA is consistent with these principles. A
transferee must show that its conduct was honest in
fact, reasonable in light of known facts, and free from
willful ignorance of fraud. In applying this standard,
Texas courts have considered “whether a transferee
received fraudulent transfers with actual knowledge
or inquiry notice of fraud.” GMAG, 913 F.3d at 455-56
(citing Citizens Nat’l Bank of Tex. v. NXS Constr., Inc.,
387 S.W.3d 74, 85 (Tex. App.—Houston [14th Dist.]
2012, no pet.)). The Fifth Circuit’s certified question
presumes, and the jury found, that Magness was on
inquiry notice. We therefore focus our analysis on how
a transferee with inquiry notice of fraud can prove
good faith.
Inquiry notice is “[n]otice attributed to a person
when the information would lead an ordinarily
prudent person to investigate the matter further.”
Inquiry Notice, Black’s Law Dictionary (11th ed.
2019). A person is on inquiry notice when he or she is
“aware of facts that would have prompted a reasonable
person to investigate.” Id. Whether inquiry notice
exists is determined at the time of the transfer, not
with the benefit of hindsight. See Golf Channel, 487

App-52
S.W.3d at 569 (reaching same conclusion as to value
and reasonable equivalency components of defense).
As one court of appeals has explained, a
transferee is on inquiry notice when it “takes property
with knowledge of such facts as would excite the
suspicions of a person of ordinary prudence” regarding
“the fraudulent nature of an alleged transfer.” Hahn
v. Love, 321 S.W.3d 517, 527 (Tex. App.—Houston [1st
Dist.] 2009, pet. denied). A transferee on inquiry
notice knows facts that are, or should be, suspicious:
red flags that a reasonable person would have
investigated prior to engaging in the transfer.4
There are at least two types of knowledge a
transferee has when on inquiry notice: (1) actual
knowledge of facts that raise a suspicion of fraud, and
(2) constructive knowledge of what the transferee
could have uncovered in an investigation.
Understanding the distinction between these types of
knowledge helps to explain why a transferee on
inquiry notice of the debtor’s fraudulent intent cannot
prove good faith without conducting a diligent
investigation—regardless of what that investigation
would reveal.
In the context of inquiry notice, actual knowledge
means “[k]nowledge of information that would lead a
reasonable person to inquire further.” Actual
Knowledge, Black’s Law Dictionary (11th ed. 2019). As
we have recognized, actual knowledge of suspicious
4 Quilling v. Stark, No. 3-05-CV-1976-BD, 2007 WL 415351, at
*3 (N.D. Tex. Feb. 7, 2007) (holding transferee’s attempt to prove
TUFTA’s good-faith defense failed as matter of law because a
reasonable person would have investigated legitimacy of
transfer).

App-53
facts shifts a transferee’s status from taking in good
faith to being on inquiry notice of fraud. See Blum v.
Simpson, 17 S.W. 402, 403 (Tex. 1886) (“Taking all
these circumstances in connection, it does seem that
there was enough to arouse a suspicion in the mind of
any prudent man that there was an intention on the
part of [debtor] to dispose of his property in such a way
that, if he had any creditors, … they would be
deprived of all power to enforce their claims against
him.”).5
If a diligent inquiry could have uncovered facts
showing fraudulent intent, Texas common law
imputes knowledge of those additional facts to the
transferee as well. Woodward v. Ortiz, 237 S.W.2d
286, 289 (Tex. 1951). Constructive knowledge is
“[k]nowledge that one using reasonable care or
diligence should have, and therefore that is attributed
by law to a given person.” Constructive Knowledge,
Black’s Law Dictionary (11th ed. 2019). The transferee
can be charged with this knowledge in hindsight so
long as it reasonably could have been discovered at the
time of the transfer. Ruebeck v. Hunt, 176 S.W.2d 738,
739 (Tex. 1943) (“Knowledge of facts that would cause
a reasonably prudent person to make inquiry, which if
pursued would lead to a discovery of fraud, is in law
equivalent to knowledge of the fraud.”).

5 Blum was decided under a predecessor fraudulent transfer
statute providing that a purchaser with “notice” of the debtor’s
fraudulent intent could not keep the transfer. See Tex. Rev. Civ.
Stat. Ann. art. 2465 (1879).

App-54
IV. A transferee on inquiry notice of fraud
must conduct a diligent investigation to
prove good faith.
As framed by these legal principles regarding
good faith and inquiry notice, the question we must
decide is: how can a transferee prove good faith when
it has actual knowledge of facts raising a suspicion
that the transfer is voidable under TUFTA but lacks
constructive knowledge of facts showing fraudulent
intent? The jury found that Magness was on inquiry
notice because he or his agents had actual “knowledge
of facts relating to the transaction at issue that would
have excited the suspicions of a reasonable person and
led that person to investigate.” In this circumstance, a
transferee seeking to prove good faith must show that
it investigated the suspicious facts diligently. A
transferee who simply accepts a transfer despite
knowledge of facts leading it to suspect fraud does not
take in good faith. See Blum, 17 S.W. at 403 (“Yet
[transferee] made no inquiry . . . . This showed a
disposition on his part to make the trade, and get
possession of the property at a low figure, no matter
how much the seller’s creditors might suffer
thereby.”).
Magness responds by pointing out that the jury
also found “a diligent inquiry would not have revealed
to a reasonable person that Stanford was running a
Ponzi scheme.” Because any investigation would have
been fruitless, he contends knowledge of the Bank’s
fraudulent intent cannot be imputed to him, and
therefore he took in good faith.
his

We agree with Magness’s premise, but we reject
conclusion. Whether a transferee lacks

App-55
constructive knowledge of the debtor’s fraudulent
intent does not, by itself, determine good faith.
Magness’s proposed rule does not acknowledge his
actual knowledge of facts that raised a suspicion of
fraud. Nor does it acknowledge that choosing to
remain willfully ignorant of any information an
investigation might reveal is incompatible with good
faith.
A transferee cannot show good faith in this
situation because, irrespective of what a hypothetical
investigation could reveal, the facts giving rise to a
reasonable suspicion of fraud have not been
confronted. Even if the fraud is inherently
undiscoverable, the transferee still has actual
knowledge of facts at the time of the transfer that
would lead a reasonable person to suspect fraud and
investigate. If the transferee fails to demonstrate its
good faith and avoid willful ignorance by conducting a
diligent investigation, it cannot be characterized as
acting with honesty in fact.
Magness contends that our decision in Wethered’s
Administrator v. Boon supports his position that when
a reasonable inquiry could not have revealed the true
facts, a finding of inquiry notice is inappropriate.6 But
the
transferee
in
Wethered’s
Administrator

6 17 Tex. 143, 150 (1856) (“The general doctrine is, that
whatever puts a party upon an inquiry amounts, in judgment of
law, to notice, provided the inquiry becomes a duty … and would
lead to the knowledge of the requisite fact, by the exercise of
ordinary diligence and understanding.”).

App-56
investigated his suspicions diligently,7 so that case is
not instructive in answering the certified question. We
are not asked to define under what circumstances a
diligent investigation by a transferee on inquiry notice
of fraud will be sufficient to establish good faith, and
we express no view on that issue. Instead, we are
simply asked whether an investigation is necessary—
that is, whether a transferee on inquiry notice of fraud
may achieve good faith without any investigation at
all. We conclude that in this situation, a transferee
wishing to take advantage of the defense must show it
conducted a diligent investigation.
The parties and amici also dispute whether
Humphries v. Freeman, 22 Tex. 45 (1858), supports
the proposition that a transferee can take in good faith
despite its initial suspicions of fraud when a diligent
investigation would not have revealed the fraud.
Applying a predecessor statute to TUFTA,8 we
explained in Humphries:
It is not necessary that [transferee] should
have been influenced in what he did, by a like
fraudulent intent, in order to avoid the
assignment as to him also; or that he should
have intended to assist [debtor] to defraud his
creditors; or that he should have had actual
See id. at 148-49, 151 (reversing judgment based on jury
finding of inquiry notice where transferee conducted diligent
investigation).
7

8 See Act approved Jan. 18, 1840, 4th Cong., R.S., § 2, 1840
Repub. Tex. Laws 28, 29, reprinted in 2 H.P.N. Gammel, The
Laws of Texas 1822-1897, at 202, 203 (Austin, Gammel Book Co.
1898) (providing fraudulent transfer was void unless “possession
shall really and bona fide remain with the donee”).

App-57
knowledge that such, in fact, was the
intention of [debtor]. It is sufficient to affect
him with notice, if by ordinary diligence he
might have known. If he had a knowledge of
such facts, as were calculated to create a
suspicion that such was the purpose of
[debtor], and to put him upon inquiry; if, in a
word, he had reason to know or believe that
such was the intention of [debtor], it is
sufficient to avoid the assignment as to him,
as effectually as if he had actually known it.
Id. at 50.
The Receiver relies on the last sentence to argue
that a transferee on inquiry notice cannot achieve
good faith. But according to the University of Miami
as amicus, the second sentence suggests that a
transferee on inquiry notice can still take in good faith
unless a hypothetical diligent investigation would
reveal fraud, as the transferee only has constructive
knowledge of what the investigation would reveal.
Under this view, Magness would not be responsible for
the knowledge that initially raised his suspicions of
fraud because the jury found an investigation would
have been futile, and he may invoke TUFTA’s goodfaith defense successfully.
We conclude that Humphries does not affect our
answer to the certified question. That case addressed
whether a creditor seeking to void a transfer must
show that the transferee had fraudulent intent or
actual knowledge of fraud, or whether a lesser
standard of notice is also sufficient. We concluded that
notice is sufficient and reversed a jury’s verdict for the

App-58
transferee as contrary to the evidence, which showed
the facts known to the transferee
were certainly sufficient to put him on
inquiry, and to affect him with notice; and
consequently, to affect the property, in his
hands, with the fraud of his assignor. The
evidence ought to have been decisive in the
minds of the jury, that the assignment was
fraudulent and void under the statute, as
having been made with the intent to delay,
hinder and defraud the creditors of [debtor].
Id. at 51. We went on to observe that the jury should
have been instructed actual knowledge was not
required, id. at 53, but we had no occasion to parse the
concepts of inquiry notice and constructive knowledge
to provide a detailed analysis of what proof would be
sufficient to avoid the transfer.
Magness also cites a litany of cases he argues
“consistently recogniz[e] that a party may be charged
with notice only of ‘those things which a reasonably
diligent inquiry and exercise of the means of
information at hand would have disclosed.’”9 The cases
cited decide whether an individual may be charged
with constructive knowledge, which is not the
question before us. Rather, we are asked to decide how
a transferee on inquiry notice can prove good faith to
invoke TUFTA’s defense.

9 Quoting Woodward, 237 S.W.2d at 289; see also Flack v. First
Nat’l Bank of Dalhart, 226 S.W.2d 628 (Tex. 1950); Ruebeck, 176
S.W.2d at 739-40; Ron Carter, Inc. v. Kane, No. 01-10-00815-CV,
2011 WL 5100903 (Tex. App.—Houston [1st Dist.] Oct. 27, 2011,
pet. denied) (mem. op.).

App-59
CONCLUSION
A transferee on inquiry notice of fraud cannot
shield itself from TUFTA’s clawback provision without
diligently investigating its initial suspicions—
irrespective of whether a hypothetical investigation
would reveal fraudulent conduct. To hold otherwise
rewards willful ignorance and undermines the
purpose of TUFTA. We answer the certified question
no.
___________________
J. Brett Busby
Justice
OPINION DELIVERED: December 20, 2019

App-60
Appendix F
UNITED STATES DISTRICT COURT FOR THE
NORTHERN DISTRICT OF TEXAS
DALLAS DIVISION
________________
No. 15-cv-00401
________________
RALPH S. JANVEY, RECIEVER,
Plaintiff,
v.
GMAC, L.L.C., et al.,
Defendants.
________________
Filed: Sept. 14, 2017
________________
ORDER
________________
This Order addresses Plaintiff Ralph S. Janvey’s
(the “Receiver”) motions for judgment as a matter of
law, [243] and [251], and motion for entry of judgment
[260]. Because the jury had a legally sufficient
evidentiary basis for its verdict, GMAG, LLC,
Magness Securities, LLC, Gary D. Magness, and
Mango Five Family, Inc., in its capacity as trustee for
the Gary D. Magness Irrevocable Trust, (collectively,
the “Magness Defendants”) are entitled to judgment
and the Court denies the Receiver’s motions.
I.

The Origins of the Motions

This case was tried to a jury beginning January 9,
2017. The jury found (1) that the Magness Defendants

App-61
did not have actual knowledge of R. Allen Stanford’s
Ponzi scheme, (2) that the Magness Defendants did
have inquiry notice of Stanford’s Ponzi scheme, and
(3) that further investigation of the Magness
Defendants’ suspicions would have been futile. Court’s
Charge to the Jury 7-9 [256], Verdict of the Jury [257].
Thus, the Magness Defendants prevailed at trial on
their good-faith defense under the Texas Uniform
Fraudulent Transfer Act. The Receiver moves for
judgment as a matter of law under Rule 50 on the
grounds that (1) the Magness Defendants are
estopped from asserting their good-faith defense and
(2) the evidence was insufficient to support the
verdict. The Receiver also moves for entry of judgment
on the jury’s verdict on the ground that the jury’s
finding on inquiry notice is sufficient to require
judgment for the Receiver.
II. The Court Denies the Receiver’s Rule 50
Motions
A. The Magness Defendants Are Not
Estopped From Asserting Good Faith
The Receiver argues that the Magness
Defendants made sworn statements on Internal
Revenue Service tax forms about their state of mind
regarding Stanford and that those statements are
incompatible
with
their
good-faith
defense.
Specifically, the Receiver cites the statement that the
Magness Defendants were “concerned” that their
certificate of deposit (“CD”) “principal was in jeopardy”
based on “the investigation of Stanford that was active
in 2008.” The Receiver argues that the Magness
Defendants took a “completely contrary” position in

App-62
this litigation and that such a “bait-and-switch tactic”
is not allowed.
The Magness Defendants’ tax form statements
are insufficient to preclude their good-faith defense as
a matter of law. The Receiver relies on several
authorities for the proposition that sworn statements
on federal tax returns bind the maker to that position
in later judicial proceedings. But given the timing of
the transfers (October 2008), Magness Defendants’
Stanford Advisor Tom Espy’s testimony about when
his concerns arose (December 2008), and the time at
which the tax form statements were made (September
and October 2009), it is reasonable to conclude that
the tax form statements do not contradict the Magness
Defendants’ position that the October 2008 transfers
were taken in good faith. Thus, estoppel doctrines do
not require judgment for the Receiver. Moreover,
these statements do not establish actual knowledge as
a matter of law, nor do they override the jury’s finding
that investigations of the Magness Defendants’
concerns would have led to such knowledge.
Consequently, even if the Magness Defendants’ tax
form statements conclusively established that they
were concerned about losing their investment based
on a Securities and Exchange Commission
investigation of Stanford International Bank, Ltd.
(“SIBL”), such a concern would not require the Court
to set aside the jury’s verdict.
B. The Jury’s Verdict Is Reasonable Based
on the Evidence
Based on the evidence in the record, the jury’s
answers to the Court’s questions are reasonable. The
Receiver argues that no reasonable jury could have

App-63
found for the Magness Defendants regarding whether
the Magness Defendants had (1) actual notice or
(2) inquiry notice of Stanford’s Ponzi scheme. Because
the jury found that the Magness Defendants were on
inquiry notice, the Court addresses only the Receiver’s
argument on actual notice.
The Receiver argues that the Magness
Defendants had actual knowledge of SIBL’s fraud or
insolvency based on SIBL’s refusal to allow the
Magness Defendants to redeem their CDs, which
contrasted with SIBL’s public claims of financial
strength. But the jury also heard evidence from a
variety of witnesses showing that the Magness
Defendants did not have actual knowledge of SIBL’s
fraud or insolvency. The jury is “the sole judge[] of the
credibility … of each witness and the weight … to be
given to the witness’s testimony.” Court’s Charge to
the Jury 3 [256]. Based on the evidence, a reasonable
jury could determine that the Magness Defendants did
not have actual notice of SIBL’s fraud or insolvency.
Accordingly, the Receiver is not entitled to judgment
as a matter of law on this question.
III. The Court Denies the Receiver’s Motion for
Entry of Judgment
Neither is the Receiver entitled to judgment on
the jury’s verdict. The Receiver argues that the jury’s
finding that the Magness Defendants were on inquiry
notice of Stanford’s Ponzi scheme is alone sufficient to
require judgment for the Receiver. The Court
addressed the good-faith analysis in Janvey v. Alguire,
Civil Action No. 3:09-CV-0724-N (N.D. Tex). In that
case, and again in briefing in this case, the Receiver
argued that In re American Housing Foundation, 785

App-64
F.3d 143 (5th Cir. 2015), provided the correct two-step
framework for analyzing good faith. Under that
framework, the Court examines (1) “whether the
transferee had information that put it on inquiry
notice that the transferor was insolvent or that the
transfer might be made with a fraudulent purpose”
and (2) whether, having been put on inquiry notice,
the transferee “satisf[ied] a ‘diligent investigation’
requirement.” Id. at 164. In Alguire, the Court not only
adopted the two-step framework, but also concluded
that the second step could be rebutted if the jury
concluded that further investigation would be futile.
The Receiver now argues that the two-step analysis
for which he argued is actually a one-step analysis
resulting in victory for him. The Court will not revisit
its previous rulings on this question. Accordingly, the
Court denies the Receiver’s motion and, by separate
document, renders judgment for the Magness
Defendants.
CONCLUSION
The Court denies the Receiver’s motions for
judgment as a matter of law under Rule 50. The Court
also denies the Receiver’s motion for judgment on the
jury verdict under Rule 58. By separate document, the
Court renders judgment on the verdict for the
Magness Defendants.
Signed September 14, 2017.
[handwritten: signature]
David C. Godbey
United States District Judge

App-65
Appendix G
UNITED STATES DISTRICT COURT FOR THE
NORTHERN DISTRICT OF TEXAS
DALLAS DIVISION
________________
No. 15-cv-00401
________________
RALPH S. JANVEY,
Plaintiff,
v.
GMAC, L.L.C., et al.,
Defendants.
________________
Filed: Dec. 14, 2017
________________
ORDER
________________
This Order addresses Plaintiff Ralph S. Janvey’s
(the “Receiver”) renewed motion for entry of judgment
as a matter of law [282], motion for new trial [280],
and motion to amend or correct the judgment [280].
For the reasons below, the Court denies the Receiver’s
renewed motion for entry of judgment as a matter of
law and motion for new trial and grants the motion to
amend or correct the judgment.
I.

The Origins of the Motions

This case was tried to a jury beginning on January
9, 2017. On January 18, 2017, the jury found that
(1) GMAG, LLC; Magness Securities, LLC; Mango
Five Family, Inc., in its capacity as trustee for the

App-66
Gary D. Magness Irrevocable Trust; and Gary D.
Magness (collectively, the “Magness Defendants”) did
not have actual knowledge of R. Allen Stanford’s Ponzi
scheme, (2) the Magness Defendants did have inquiry
notice of Stanford’s Ponzi scheme, and (3) further
investigation of the Magness Defendants’ suspicions
would have been futile. Court’s Charge to the Jury 7–
9 [256]; Verdict of the Jury [257]. Thus, the Magness
Defendants prevailed at trial on their good-faith
defense under the Texas Uniform Fraudulent
Transfer Act (“TUFTA”). Upon denying the Receiver’s
previous motions for judgment as a matter of law and
motion for entry of judgment, the Court entered final
judgment for the Magness Defendants on September
14, 2017. Final Judgment [269]. The Receiver now
again moves for judgment as a matter of law under
Federal Rule of Civil Procedure 50. The Receiver
alternatively moves for a new trial under Rule 59 and
further moves to amend or correct the judgment under
Rule 59 or 60.
II. The Court Denies the Receiver’s Renewed
Motion for Entry of Judgment as a Matter of
Law
The Receiver moves for entry judgment as a
matter of law under Federal Rule of Civil Procedure
50 on the grounds that (1) the Magness Defendants
are estopped from contesting notice of the fraudulent
nature of the transfers, (2) no reasonable jury could
conclude from the evidence that the Magness
Defendants did not have inquiry notice in taking the
transfers, and (3) the jury’s finding on inquiry notice
is sufficient to require judgment for the Receiver. But
the Court has already rejected these very arguments,

App-67
see Order 2-4 [268], and will not revisit its previous
ruling on these issues. Accordingly, the Court denies
the Receiver’s renewed motion for entry of judgment
as a matter of law.
III. The Court Denies the Receiver’s Motion for
New Trial
The Receiver alternatively moves for a new trial
under Federal Rule of Civil Procedure 59 on the
grounds that the Court (1) erroneously based the
question of good faith in the jury instructions on notice
that Stanford was engaged in a Ponzi scheme,
(2) committed plain error by giving prejudicial
instructions to the jury, (3) erroneously admitted
evidence from defense witnesses concerning Gary
Magness’ state of mind, (4) erred by admitting the
prior deposition testimony of James Davis and JuanRodriguez Tolentino, (5) improperly struck a juror for
cause sua sponte during jury selection, and
(6) erroneously granted summary judgment on the
issue of unjust enrichment. For the reasons that
follow, the Court rejects each of these grounds and
denies the motion.
A. The Court Did Not Err in Basing the
Question of Good Faith in the Jury
Instructions on Notice That Stanford
was Engaged in a Ponzi Scheme
The Receiver first argues that the Court should
grant a new trial because the jury instructions
(1) incorrectly based the question of good faith on
whether the Magness Defendants were on notice that
Stanford was engaged in a Ponzi scheme, rather than
on notice that Stanford was insolvent or a fraud, and
(2) did not define the term ‘Ponzi scheme.’ Although

App-68
the Receiver claims that there was sufficient evidence
at trial that the Magness Defendants were aware of
Stanford’s insolvence or fraud, the Court has already
ruled that “the evidence in this case [does not]
support[] anything other than a Ponzi scheme.” Offic.
Elec. Tr. of Trial (Volume 6) Procs. 255:4-5 [303]. The
Court stands by its prior ruling. Because no
reasonable jury could find that the Magness
Defendants were on notice of Stanford’s insolvence or
fraud but not on notice that Stanford was engaged in
a Ponzi scheme, the Court’s jury instructions on good
faith were properly framed. Furthermore, the Court
holds that it was not necessary to define ‘Ponzi
scheme’ in the jury instructions given the jury’s
familiarity with the frequently-used term over the
course of the seven day trial. See Janvey v. Dillon
Gage, Inc. of Dallas, 856 F.3d 377, 389 (5th Cir. 2017)
(“As a general matter, ‘[t]erms which are reasonably
within the common understanding of juries, and
which are not technical or ambiguous, need not be
defined in the trial court’s charge.’” (citing United
States v. Anderton, 629 F.2d 1044, 1048-49 (5th Cir.
1980))). In any event, any error in not defining the
term in the jury instructions was harmless given that
the Court previously defined the term during trial. See
Offic. Elec. Tr. of Trial (Volume 1) Procs. 10:19-24
[298]. Thus, a new trial is not warranted on this
ground.
B. The Court Did Not Commit Plain Error
in Giving Instructions to the Jury
The Receiver next argues that the Court should
grant a new trial because the jury instructions on the
good faith question were confusing and the Court

App-69
improperly verbally advised the jury as to the legal
effect of its answers to the questions in the jury
charge. But the question at issue, despite being
framed in the negative, was not unduly confusing and
the Court properly gave “instructions and
explanations necessary” for the jury to answer the
questions submitted. Fed. R. Civ. P. 49(a)(2).
Moreover, the Court did not err in informing the jury
as to the legal effect of its answers to the jury charge
questions, as “[f]ederal judges are free to tell the juries
the effects of their answers.” Turlington v. Phillips
Petroleum Co., 795 F.2d 434, 443 (5th Cir. 1986).
Accordingly, this argument does not merit a new trial.
C. The Court Did Not Erroneously Admit
Evidence from Defense Witnesses
Concerning Gary Magness’ State of Mind
The Receiver further argues that the Court should
grant a new trial because it erred in admitting
evidence from several defense witnesses concerning
Gary Magness’ state of mind. In particular, the
Receiver points to seven examples of defense
witnesses allegedly speculating about what Gary
Magness knew or believed, purportedly in violation of
the Federal Rules of Evidence, Fifth Circuit case law,
and the Court’s own comments during pretrial
conference. Yet the Receiver overlooks the Court’s
clarification during trial that when there is
“foundation for the testimony” – if, for example, the
witness was “there and heard things that allowed
[her] to conclude what another person was
thinking” – such evidence is admissible and in
accordance with Fifth Circuit precedent. Offic. Elec.
Tr. of Trial (Volume 3) Procs. 170:7-17 [300]; see John

App-70
Hancock Mut. Life Ins. Co. v. Dutton, 585 F.2d 1289,
1294 (5th Cir. 1978). Upon reviewing the testimony
now contested by the Receiver, the Court holds that
each piece of evidence had proper foundation and was
rightly admitted. Consequently, the Receiver is not
due a new trial on this ground.
D. The Court Did Not Err in Admitting
Prior Deposition Testimony of James
Davis and Juan-Rodriguez Tolentino
The Receiver additionally argues that the Court
should grant a new trial because it erroneously
admitted deposition testimony of James Davis and
Juan-Rodriguez Tolentino from prior legal actions.
The Receiver claims that the prior deposition
testimony was inadmissible because (1) the prior
actions and the instant case involve different causes of
action and (2) the incentive to contest the issues in the
prior actions was not the same as that in the instant
case. But these points are unavailing. First, the causes
of action in the two suits need not be the same for
deposition testimony from a prior action to be
admitted in a later case. See McCormick on Evidence
§ 304 (“[N]either the form of the proceeding, the theory
of the case, nor the nature of the relief sought need be
the
same
between
the
proceedings. . . . The
requirement has become, not a mechanical one of
identity or even of substantial identity of issues, but
rather that the issues in the first proceeding, and
hence the purpose for which the testimony was
offered, must have been such as to produce an
adequate motive for testing on cross-examination the
credibility of the testimony.”). Second, the principal
inquiry in admitting prior deposition testimony is

App-71
whether the party against whom it is later offered had
a “similar motive” to develop it on, for example, crossexamination. Fed. R. Evid. 804(b)(1)(B). Yet “similar
motive does not mean identical motive,” Battle ex rel.
Battle v. Mem’l Hosp. at Gulfport, 228 F.3d 544, 552
(5th Cir. 2000), and the Court has already determined
that the Receiver had “sufficiently adequate incentive
to cross” the deponents at issue here, Offic. Elec. Tr. of
Trial (Volume 4) Procs. 65:23 [301]. The Court thus
holds that the prior deposition testimony was properly
admitted pursuant to Federal Rule of Evidence
804(b)(1) and Federal Rule of Civil Procedure 32(a)(8).
Hence, this argument does not merit a new trial.
E. The Court Did Not Improperly Strike a
Juror for Cause Sua Sponte During Jury
Selection
The Receiver next argues that the Court should
grant a new trial because it improperly struck a juror
for cause sua sponte. During voir dire, Juror No. 12,
the juror at issue, indicated that she had previously
invested in a company that had “bottom[ed] out,”
resulting in investors losing “substantial amounts” of
money. Offic. Elec. Tr. of Trial (Volume 1) Procs. 68:2169:2 [298]. In response to the Court’s question asking
whether the similarity of her prior experience to the
facts of the instant case would impact her ability to be
a fair juror, Juror No. 12 stated:
To be totally honest with you, I’ll say it had a
big impact on me, so I don’t know if I could
totally be honest, because I don’t know what
would be mentioned, you know, what would
be said to relate to, you know, what I saw in

App-72
the past. So I think that it would have some
bearings on it, a lot of bearings on it really.
Id. at 69:13-18. Over the Receiver’s objection, the
Court then struck Juror No. 12 for cause, explaining
that “given her personal financial loss and the factual
similarities … she said [her prior experience] would
affect her [ability to be a fair juror].” Id. at 71:23-72:1.
The Receiver now claims that the Court’s sua sponte
dismissal of Juror No. 12 was improper because she
did not unequivocally say she could not be fair.
However, the Court’s factual determination was
within its discretion, as the juror’s statements
sufficiently demonstrated her inability to be impartial
in the case. This ground thus does not warrant a new
trial.
F. The Court Did Not Erroneously Grant
Summary Judgment on the Issue of
Unjust Enrichment
The Receiver finally argues that the Court should
grant a new trial because its grant of summary
judgment for the Magness Defendants on the issue of
unjust enrichment at the pretrial conference, after
previously denying the motion via written order, was
legally erroneous and thus constituted prejudicial
error. As the Receiver himself recognizes, see Rec.’s
Reply in Supp. of Mot. for New Trial and Fur. Alt. Mot.
to Amend or Corr. the J. 3 [297], the Court’s
reconsideration of the original summary judgment
ruling is indeed procedurally permissible, see Fed. R.
Civ. P. 54(b); Jackson v. Roach, 364 Fed. App’x. 138,
139 (5th Cir. 2010). On the merits, as the Court
explained at length at the pretrial conference, the
Court’s grant of summary judgment was legally

App-73
proper because the Receiver’s theory of unjust
enrichment “would be an extension under Texas law,”
the governing law on the issue. Offic. Elec. Tr. of
Pretrial Conf. Procs. 5:8 [305].
The Receiver now argues that the question of good
faith under the TUFTA and the question of whether
the Magness Defendants were unjustly enriched are
two separate questions that should have been
presented to a jury. The Court, however, stands by its
prior holding that “there[ is] [no] possible
circumstance where the Receiver could lose on its
TUFTA claim yet prevail on its unjust enrichment
claim” and thus the second question need not have
been submitted to the jury. Id. at 5:20-22. Specifically,
the jury could not find unjust enrichment consistently
with its findings that the Magness Defendants did not
have actual knowledge of Stanford’s Ponzi scheme and
that any investigation would have been futile. Hence,
“any error in [this] decision [is] harmless,” thereby not
warranting a new trial. Id. at 5:19. The Court
additionally holds that any impact this decision had
on the parties’ preparation for trial was not
prejudicial. Consequently, this ground is not an
adequate basis for a new trial.
IV. The Court Grants the Receiver’s Motion to
Amend or Correct the Judgment
The Receiver further moves to amend or correct
the judgment under Federal Rule of Civil Procedure
59 or 60 on the grounds that the final judgment issued
by the Court, see Final Judgment [269], is inconsistent
with a prior Court order granting partial summary
judgment to the Receiver for net winnings received by
the Magness Defendants, see Order [909] in Janvey v.

App-74
Alguire, Case No. 3:09-CV-0724-N (N.D. Tex).
Pursuant to Rule 60, a “court may correct a clerical
mistake or a mistake arising from oversight or
omission whenever one is found in a judgment, order,
or other part of the record.” Fed. R. Civ. P. 60(a). The
“core idea” of the rule is that a judgment may be
corrected where it “simply has not accurately reflected
the way in which the rights and obligations of the
parties have in fact been adjudicated.” Rivera v. PNS
Stores, Inc., 647 F.3d 188, 193 (5th Cir. 2011) (footnote
omitted). The Fifth Circuit has clarified:
Where the record makes it clear that an issue
was actually litigated and decided but was
incorrectly recorded in or inadvertently
omitted from the judgment, the district court
can correct the judgment under Rule 60(a),
even where doing so materially changes the
parties’ positions and leaves one party to the
judgment in a less advantageous position.
Id. at 199. Because the Court did indeed previously
grant summary judgment for the Receiver on the issue
of the Magness Defendants’ net winnings but
inadvertently omitted this ruling from the final
judgment, the Court grants the Receiver’s motion to
amend or correct the judgment. The Court issues by
separate document an amended final judgment that
properly reflects this prior adjudication.
CONCLUSION
The Court denies the Receiver’s renewed motion
for entry of judgment as a matter of law and motion
for new trial. The Court grants the Receiver’s motion
to amend or correct the judgment. By separate
document, the Court issues an amended final

App-75
judgment for the Magness Defendants that correctly
reflects the Court’s prior grant of summary judgment
to the Receiver with respect to the Magness
Defendants’ net winnings.
Signed December 13, 2017.
[handwritten: signature]
David C. Godbey
United States District Judge

